   LEGAL SERVICES CORPORATION
   OFFICE OF INSPECTOR GENERAL




           AUDIT OF
LEGAL SERVICES CORPORATION’S
TECHNOLOGY INITIATIVE GRANT
        PROGRAM



        Report No. AU-11-01
          December 2010

           www.oig.lsc.gov
                               EXECUTIVE SUMMARY

Senator Charles E. Grassley, Ranking Member of the Committee on Finance, requested
that the Inspector General conduct an audit of the Legal Services Corporation‟s
Technology Initiative Grant (TIG) program. The Senator indicated his office had
received a number of concerns regarding the TIG program and requested an audit of
the mechanisms used to monitor and evaluate the program.

Audit Objective: The objectives of the audit were to determine whether the TIG
program had appropriate internal controls in place and were properly following them,
and whether the TIG program was in compliance with applicable laws, regulations, and
LSC policies. The OIG reviewed the internal control system used to provide both
program and financial oversight. This included control activities over applying the legal
framework for the TIG grant program, awarding grants, monitoring grant performance,
terminating grants, and complying with applicable laws and regulations.

Results In Brief: Taken as a whole, the control deficiencies identified in this report
constitute a material weakness in the TIG program‟s internal control system. A material
weakness in an internal control system may result in impairments to the effectiveness
and efficiency of operations; misstatements in financial and performance information; or
violations of laws and regulations not being prevented, detected or corrected by
management or staff in the normal course of business in a timely manner. In our
opinion, LSC Management does not have adequate assurance that funds spent on TIG
projects meet stated goals, meet planned timelines, or adhere to established budgets.

While the TIG program has consistently been credited with achieving its end goal of
increasing access to legal representation, the processes for awarding and administering
grants need improvement. Appropriate internal control activities were not in place to
provide adequate program or financial oversight; in some instances, LSC regulations
were not followed, and procedures and processes were not in place to ensure
compliance with all LSC laws and regulations.

LSC inconsistently interprets and applies the statutory framework authorizing TIG
grants, and the process for making TIG awards does not adequately provide for
competition among vendors performing major TIG functions. Policies and procedures
governing the award and administration of TIG grants are not adequately documented
and lack necessary internal controls, having a negative impact on the selection of TIG
grant recipients; the monitoring of grantee‟s performance and expenditures; and the
termination of TIG grants in a timely manner. Finally, in some cases, LSC is not
requiring compliance with LSC regulations dealing with sub-grants and not sufficiently
monitoring TIG recipients‟ compliance with LSC regulations.

Recommendations: The OIG made one overall recommendation and 35 specific
recommendations to address the issues identified and to strengthen internal controls
over the TIG program. Overall, the OIG recommended that LSC consider suspending

                                            i
the award of TIG grants until an adequate internal control system is designed and
implemented.

The OIG made 35 other recommendations to strengthen the internal controls over TIG
program operations. These included recommendations to LSC Management in the
following 3 areas:

      Legal   Interpretation  Issues    (6   recommendations).     These     include
      recommendations to:
             Ensure that LSC consistently interprets and applies the statutory
               framework authorizing TIG grants
             Ensure that vendors who receive a significant portion of TIG funding
               are selected based on competitive processes that ensure best value

      Award and Administration Issues (22 recommendations). These include
      recommendations to ensure that specific policies and procedures that govern the
      management and administration of the TIG program are fully documented and
      establish adequate internal controls and processes to be followed. Areas of
      emphasis include:
              Documenting award decisions
              Monitoring performance reporting
              Terminating non-performing grants
              Monitoring TIG grantee expenditures
              Evaluating TIG grantee sustainability plans
              Addressing conflicts of interest

      Regulatory Compliance Issues (7 recommendations). These include
      recommendations to:
             Identify TIG grants subject to LSC‟s subgrant regulations and, for these
               grants, ensure that subgrant rules are followed
             Develop processes to detect and prevent violations of restriction by
               transferees and to monitor program integrity issues on TIG projects

Summary of LSC Management Comments:

In response to the overall recommendation, the LSC President indicated that he
suspended awarding all 2010 TIGs pending a rigorous review and would “…consider
awarding some critical TIGs in which failure to do so would result in shutting down
technology projects that provide crucial support to vital ongoing activities.” The
President further indicated the remaining TIG awards would resume “…only when I am
confident that sufficient progress has been made in improving internal controls and that
doing so will not unreasonably put LSC funds at risk.”

LSC Management provided a response to each of the other 35 recommendations
describing actions planned or taken. For most recommendations, LSC Management

                                           ii
provided comments in addition to the specific response to the recommendation. LSC
Management‟s response to the recommendations and the additional comments are
included verbatim in the body of the report except where specifically noted. The full text
of LSC Management‟s response and comments to the draft report is Appendix I of this
report.

OIG Evaluation of LSC Management’s Response:

LSC Management‟s planned actions to address the overall recommendation are
responsive. The OIG‟s evaluation of LSC Management‟s response to the other 35
recommendations is included in the body of the report and summarized below.

The OIG considers LSC Management‟s planned actions to be responsive to 25
recommendations in the following areas:

         Consistently interpreting and applying the statutory framework
         Developing policies and procedures governing award and administration
         Documenting award decisions
         Monitoring TIG grantee performance
         Monitoring TIG grantee expenditures
         Evaluating TIG grantee sustainability plans

The OIG considers LSC Management‟s planned actions as not responsive to 10
recommendations. This is because rather than implementing the recommendation, LSC
Management will review the issue further and then decide what specific actions to take.
The OIG will review the specific action ultimately taken by Management. The OIG
considers Management actions to be not responsive in the following areas:

         Selecting vendors based on competition
         Terminating non-performing TIG grants
         Addressing conflicts of interest
         Establishing adequate oversight over subgrants
         Monitoring restricted activities by transferees and program integrity issues on
          certain TIG projects

The OIG considers all recommendations open until LSC Management completes action
on each recommendation and provides written notification to the OIG that all actions
have been completed.




                                            iii
                                        TABLE OF CONTENTS
INTRODUCTION ............................................................................................................. 1

BACKGROUND .............................................................................................................. 1

OBJECTIVES .................................................................................................................. 2

SCOPE AND METHODOLOGY ...................................................................................... 3

OVERALL EVALUATION ................................................................................................ 4

OVERALL RECOMMENDATION .................................................................................... 6
Recommendation 1 ......................................................................................................... 6

AUDIT FINDINGS ........................................................................................................... 7
I. Legal Interpretation Issues ......................................................................................... 7
A. Inconsistent Application of the Statutory Framework ................................................. 7
B. Selection of Mandated Vendors Not Competitive....................................................... 9
      Recommendation 2 ............................................................................................ 11
      Management Response and Comment .............................................................. 11
      Evaluation of Management Response ................................................................ 11

         Recommendation 3 ............................................................................................ 11
         Management Response and Comment .............................................................. 11
         Evaluation of Management Response ................................................................ 12

         Recommendation 4 ............................................................................................ 12
         Management Response and Comment .............................................................. 12
         Evaluation of Management Response and Comment ........................................ 12

         Recommendation 5 ............................................................................................ 13
         Management Response and Comment .............................................................. 13
         Evaluation of Management Response and Comment ........................................ 13

         Recommendation 6 ............................................................................................ 14
         Management Response ..................................................................................... 14
         Evaluation of Management Response ................................................................ 14

         Recommendation 7 ............................................................................................ 14
         Management Response and Comment .............................................................. 14
         Evaluation of Management Response and Comment ........................................ 15

II. Award and Administration Issues ............................................................................. 16
A. TIG Policies and Procedures Not Fully Documented ............................................... 17
        Recommendation 8 ............................................................................................ 18
        Management Response and Comment .............................................................. 18
        Evaluation of Management Response and Comment ........................................ 18

B. Award Decisions Not Fully Documented .................................................................. 18
     Recommendation 9 ............................................................................................ 20
     Management Response and Comment .............................................................. 20
     Evaluation of Management Response and Comment ........................................ 21

        Recommendation 10 .......................................................................................... 21
        Management Response ..................................................................................... 21
        Evaluation of Management Response ................................................................ 22

C. Performance Reporting Not Sufficiently Monitored .................................................. 22
      Recommendation 11 .......................................................................................... 23
      Management Response ..................................................................................... 23
      Evaluation of Management Response ................................................................ 23

D. Formal Termination Procedures Not Established .................................................... 24
      Recommendation 12 .......................................................................................... 26
      Management Response and Comment .............................................................. 26
      Evaluation of Management Response and Comment ........................................ 27

        Recommendation 13 .......................................................................................... 28
        Management Response and Comment .............................................................. 28
        Evaluation of Management Response and Comment ........................................ 28

        Recommendation 14 .......................................................................................... 28
        Management Response and Comment .............................................................. 28
        Evaluation of Management Response and Comment ........................................ 29

        Recommendation 15 .......................................................................................... 29
        Management Response ..................................................................................... 29
        Evaluation of Management Response ................................................................ 29

        Recommendation 16 .......................................................................................... 29
        Management Response ..................................................................................... 30
        Evaluation of Management Response ................................................................ 30

        Recommendation 17 .......................................................................................... 30
        Management Response ..................................................................................... 30
        Evaluation of Management Response ................................................................ 30
E. Actual Expenditures Incurred by Grantees Not Monitored ....................................... 30
      Recommendation 18 .......................................................................................... 31
      Management Response and Comment .............................................................. 32
      Evaluation of Management Response and Comment ........................................ 32

        Recommendation 19 .......................................................................................... 32
        Management Response and Comment .............................................................. 32
        Evaluation of Management and Comment ......................................................... 33

        Recommendation 20 .......................................................................................... 33
        Management Response ..................................................................................... 33
        Evaluation of Management Response ................................................................ 33

        Recommendation 21 .......................................................................................... 33
        Management Response and Comment .............................................................. 34
        Evaluation of Management Response ................................................................ 34

        Recommendation 22 .......................................................................................... 34
        Management Response and Comment .............................................................. 34
        Evaluation of Management Response ................................................................ 35

F. Third-Party Sustainability Plan Inappropriately Funded ........................................... 35
      Recommendation 23 .......................................................................................... 36
      Management Response and Comment .............................................................. 37
      Evaluation of Management Response and Comment ........................................ 37

        Recommendation 24 .......................................................................................... 38
        Management Response ..................................................................................... 38
        Evaluation of Management Response ................................................................ 38

        Recommendation 25 .......................................................................................... 38
        Management Response ..................................................................................... 38
        Evaluation of Management Response ................................................................ 38

        Recommendation 26 .......................................................................................... 38
        Management Response ..................................................................................... 38
        Evaluation of Management Response ................................................................ 38

G. Apparent Conflicts of Interest Not Identified ............................................................ 39
     Recommendation 27 .......................................................................................... 40
     Management Response and Comment .............................................................. 40
     Evaluation of Management Response and Comment ........................................ 40
         Recommendation 28 .......................................................................................... 41
         Management Response ..................................................................................... 41
         Evaluation of Management Response ................................................................ 41

III. Enforcement of Regulatory Compliance ................................................................... 41
     A. Subgrant Rules Not Properly Applied ................................................................. 41
        Recommendation 29 .......................................................................................... 44
        Management Response ..................................................................................... 44
        Evaluation of Management Response ................................................................ 44

         Recommendation 30 .......................................................................................... 45
         Management Response and Comment .............................................................. 45
         Evaluation of Management Response and Comment ........................................ 46

         Recommendation 31 .......................................................................................... 46
         Management Response ..................................................................................... 46
         Evaluation of Management Response ................................................................ 46

         Recommendation 32 .......................................................................................... 46
         Management Response and Comment .............................................................. 47
         Evaluation of Management Response and Comment ........................................ 47

         Recommendation 33 .......................................................................................... 48
         Management Response and Comment .............................................................. 48
         Evaluation of Management Response and Comment ........................................ 48

         Recommendation 34 .......................................................................................... 49
         Management Response and Comment .............................................................. 49
         Evaluation of Management Response and Comment ........................................ 49

B. Regulatory Compliance Not Adequately Monitored ................................................. 50
     Regulatory Compliance by Third-Party Entities .................................................. 50
     Program Integrity in Collaborative Projects ........................................................ 51
     Recommendation 35 .......................................................................................... 52
     Management Response and Comment .............................................................. 52
     Evaluation of Management Response and Comment ........................................ 53

         Recommendation 36 .......................................................................................... 53
         Management Response and Comment .............................................................. 53
         Evaluation of Management Response and Comment ........................................ 54


LSC MANAGEMENT‟S RESPONSE TO DRAFT REPORT .......................... APPENDIX I
                                INTRODUCTION
In a January 2009 letter to the Legal Services Corporation Inspector General, Senator
Charles E. Grassley, Ranking Member of the Committee on Finance, requested an
audit of the Technology Initiative Grant (TIG) program. The Senator indicated his office
had received a number of concerns regarding the TIG program and requested an audit
of the mechanisms used to monitor and evaluate the program.


                                 BACKGROUND
LSC Technology Initiative Grant (commonly referred as TIG or TIG grant) program was
established in LSC‟s FY 2000 appropriation. The legislation specified that program
funds be used to enhance “client self-help and information technology.” Subsequent
LSC appropriations have affirmed that TIG funds should be used for these same
purposes. From 2000 through 2009, LSC has made 414 TIG grants totaling
approximately $33 million.

LSC established the following objectives for grants issued under its TIG program:

         Providing direct legal information through websites;
         Creating and improving self-help materials and guidance;
         Increasing advice and brief services with centralized intake;
         Reaching geographically isolated clients through video conferencing;
         Ensuring that TIG grantees and the national community possess the
          technological infrastructures required to successfully implement projects; and,
         Providing grantees with technical assistance to augment their ability to
          effectively implement cutting edge technologies.

The TIG program is administered by the Office of Program Performance (OPP). The
TIG program has three staff members and one intern devoting all of their time to
managing grants. An additional OPP staff member is dedicating a percentage of his
time on the evaluation plans and reports of the projects. In August 2010, TIG
management added a new member to their team to specifically address the needs of
the TIG Program.

The award of TIG grants occurs annually and, depending on the established focus of
the technology needs that year, different types of projects are awarded. From the
beginning of the TIG program cycle in 2000 through 2005, full applications were sent to
LSC to be reviewed by a panel of outside knowledgeable individuals (external
reviewers) as well as TIG staff. After analyzing all information, the TIG staff
recommended projects to be awarded TIG grants to LSC Management officials who
                                           1
selected the projects that most adequately addressed the technology priorities identified
for that year. Starting in 2006, LSC changed the application process by soliciting
Letters of Intent. Letters of Intent, which briefly outline a proposed project, were
instituted because many grantees spent a lot of time and effort putting together a full
application only for it to be rejected in the end. TIG program officials also moved away
from using external reviewers, and instead, use internal staff to conduct the primary
review of Letters of Intent. The TIG staff then invites grantees with the most promising
proposals to submit full applications. TIG staff members evaluate the applications and
compile a list of recommended projects for management review and approval. In FY
2009, approximately 90% of the full applications submitted were selected for funding.

The TIG program requires that once grants are awarded TIG staff members are to
receive a series of milestone and quarterly reports detailing the progress of on-going
grants. After an initial payment of a maximum of 40 percent of the total award, the grant
is separated into a set number of payment periods, with of milestones to be
accomplished during each period. The grantee must submit a report demonstrating that
the specific milestones were met in order for the payment to be made to the grantee.
Lastly, the structure of the TIG program requires a final evaluation report to show the
impact and effectiveness the finished project had on increasing client access as well as
on augmenting capacity to serve at the grantee and/or legal aid community level.

Before the 2010 grant cycle, TIG staff members used two systems called Pearl and
Worksite to document and track the TIG projects‟ progress. Beginning with the 2010
TIG grant cycle, TIG staff members began using a section of LSC‟s grants management
system specifically designated for TIG grants.


                                  OBJECTIVES
The objectives of the audit were to determine whether an appropriate internal control
system was in place and properly followed, and whether the TIG program was in
compliance with applicable laws, regulations, and LSC policies. To accomplish our
objectives, the OIG reviewed the internal control system used to provide both program
and financial oversight. This included control activities over applying the legal
framework for the TIG grant program, awarding grants, monitoring grant performance,
terminating grants, and complying with laws and regulations.




                                           2
                           SCOPE AND METHODOLOGY
To accomplish the objectives the OIG obtained an understanding of the internal control
system by reviewing LSC policies and procedures, including all relevant manuals,
guidelines, website information, memoranda, emails, and directives setting forth current
TIG grant management. The OIG interviewed TIG program officials and Office of
Financial and Administration (OFAS) officials to obtain an understanding of the internal
control framework and the officials‟ knowledge and understanding of the processes in
place. Applicable laws and regulations pertaining to the TIG program were also
reviewed.

A judgmental sample of TIG grants awarded during the period FY 2000 through FY
2009 was selected and reviewed. A sample of 131 TIG awards, representing just over
10 percent of the $29,343,239 (373 separate grants) awarded during the period FY
2000 to FY 2008 were initially reviewed. Additional grants were selected to evaluate
based on specific aspects identified in the initial sample of 13 TIG grants. For example,
572 TIG grants that were primarily carried out by third party contractors during the period
FY 2000 to FY 2009 were reviewed. In addition, the OIG reviewed 22 grants that had
particularly long outstanding balances, some of which had been terminated.

The OIG was provided with a spreadsheet of all TIG awards and a database that
contained documentation related to each TIG awarded. The documentation in the
database included proposal requests, proposed budgets, award documents, milestone
reports and payment schedules. Audit tests were not performed on the general or
application controls over the automated systems, Worksite and Pearl, which produced
this information. The system was an electronic filing system of documents pertaining to
each grant. We believe that the documents retrieved from this system provided the OIG
with the same level of reliability as a paper filing system and thus was adequate to
support our conclusions.

The OIG also was provided two Access databases that contained quarterly reports and
milestone reports as of February 2010. In addition, TIG staff members provided an
electronic file containing emails between TIG grantees and TIG staff members called
Tech Grants. TIG staff indicated that some TIG related emails were not included in
Tech Grants because a long time TIG staff member resigned from LSC in 2008 and had
not always forwarded relevant emails to the Tech Grants electronic file. The OIG based
its conclusions on the documentation provided.

1
  The OIG had initially planned to review 30 grants. The OIG modified its sampling plan to look at grants
that had specific characteristics identified in the review of the initial 13 grants.
2
 After the issuing the draft report, the OIG made minor revisions to the number and dollar amounts of
grants reviewed and the number of grants included as support for some findings. All affected numbers
were adjusted accordingly in the final report. The changes did not impact the findings in the report.

                                                    3
This performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that the OIG plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for its
findings and conclusions based on the audit objectives. The evidence obtained
provides a reasonable basis for the OIG‟s findings and conclusions based on the audit
objectives. The OIG conducted audit field work from November 2009 to July 2010.


                           OVERALL EVALUATION
Taken as a whole, the control deficiencies identified in this report constitute a material
weakness in the TIG program‟s internal control system. A material weakness in an
internal control system may result in impairments to the effectiveness and efficiency of
operations; misstatements in financial and performance information; or violations of
laws and regulations not being prevented, detected or corrected by management or
staff in the normal course of business in a timely manner. In our opinion, LSC
Management does not have adequate assurance that funds spent on TIG projects meet
stated goals, meet planned timelines, or adhere to established budgets as discussed in
detail below.

While the TIG program has consistently been credited with achieving its end goal of
increasing access to legal representation, the processes for awarding and administering
grants need improvement. Appropriate internal control activities were not in place to
provide adequate program or financial oversight. In some instances, LSC regulations
were not followed, and procedures and processes were not in place to ensure
compliance with all LSC laws and regulations.

LSC inconsistently interprets and applies the statutory framework authorizing TIG
grants, and the process for making TIG awards does not adequately provide for
competition among vendors performing major TIG functions. Policies and procedures
governing the award and administration of TIG grants are not adequately documented
and lack necessary internal controls, having a negative impact on the selection of TIG
grant recipients; the monitoring of grantee‟s performance and expenditures; and the
termination of TIG grants in a timely manner. Finally, in some cases, LSC is not
requiring compliance with LSC regulations dealing with sub-grants and not sufficiently
monitoring TIG recipients‟ compliance with LSC regulations. Detailed findings are
included in three sections of the report and are summarized below.




                                            4
I. Legal Interpretation Issues
LSC inconsistently interprets and applies the statutory framework for the TIG program.
It structures grants to appear compliant with restrictive guidance in a conference report 3
with respect to certain aspects of the program (eligibility for TIG grants) but not with
respect to other aspects (type of projects funded), where it takes advantage of the less
restrictive statutory language. The conference report is not controlling and the language
of the statute would allow LSC to make awards directly to vendors based on competition
rather than awarding TIGs to LSC grantees “on behalf of” these vendors without the use
of competition (see page 7). LSC‟s decision to award TIG grants exclusively to existing
LSC grantees resulted in its issuing approximately 14 percent of its grants, valued at
$4.5 million, to various grantees with requirements that the majority of these funds be
passed through to two third-party vendors, preselected by LSC, to accomplish the
purposes of these grants (see page 9). Also, performance data, such as the number of
LSC grantees receiving TIG grants, may be misleading when such a large number of
grants were awarded simply to pass the money through to two specific vendors.


II. Award and Administration Issues
Controls were either not properly implemented or not established. LSC established
grant award criteria tied to objectives of the TIG program, created a milestone and
quarterly reporting system, and introduced a project evaluation system requiring the
reporting of how well programs were able to meet their targets. However, the policies
and procedures implementing these measures were not adequately documented, were
not always enforced, and did not include all of the necessary internal controls (See page
17). As a result, LSC did not provide proper oversight over the process as a whole and
has no assurance that:

       Award decisions are in line with established criteria. LSC publicized that TIG
        grants would be awarded based on specific, weighted criteria but did not
        document that it employed the criteria in making award decisions. (See finding
        page 18)
       Performance is effectively monitored. TIG recipients did not consistently meet
        performance reporting requirements and LSC did not take sufficient measures to


3
  A conference report is produced by a committee of Representatives and Senators, charged with
negotiating language for a final proposed bill to be voted on in both the House and Senate. The report
contains the final version of the bill as well as a section by section analysis of that bill. See C-Span
Congressional Glossary. The conference report is the “most authoritative single source of legislative
history....” U.S. General Accounting Office, Principles of Federal Appropriations Law (3d ed.), vol. 1, 162-
163.

                                                     5
        ensure more timely reporting, thereby limiting LSC‟s ability to monitor the
        performance of the projects. (See page 22)
       Grants are terminated when warranted. LSC TIG termination procedures were
        not sufficiently developed thereby causing delays in terminating non-performing
        grants and preventing unused funds from being used for other TIG grants. (See
        page 24)
       TIG funds are being used as required in the grants. LSC does not monitor
        the actual expenditures incurred by TIG recipients on TIG projects. (See page
        30)
       Only appropriate sustainability plans are approved. LSC inappropriately
        approved a sustainability plan for a third party entity rather than for an LSC
        grantee. (See page 35.
       Apparent conflicts of interest are identified. LSC awarded TIG grants with
        apparent conflicts of interest between the grantees and third party entities. (See
        page 39)


III. Enforcement of Regulatory Compliance Issues
LSC did not properly apply its sub-grant rule when grantees paid TIG funds to third
parties. These rules require that sub-grants be submitted in writing to LSC for approval
and contain certain terms specified by regulation, including terms that ensure
compliance with LSC rules. The lack of sub-grant agreements makes it difficult to
ensure that activities are consistent with LSC restrictions (see page XX). In the case of
parties receiving transfers from TIG funds, many of the LSC restrictions would apply,
while in the case of grants or projects intended to facilitate cooperation and
collaboration with other legal service providers, the program integrity rule would apply.
However, based on an OIG review of TIG program files, LSC did not establish adequate
oversight to ensure that LSC regulations were followed by those ultimately receiving
TIG grant funds. (See page 50)


                           OVERALL RECOMMENDATION
Recommendation 1. The President of LSC should consider suspending the award of
TIG grants until an adequate internal control system is designed and implemented. The
internal control system should address the entire TIG grant making process and include
specific control activities for program and financial oversight, and processes to ensure
that compliance with LSC regulations and restrictions is enforced.4

4
 Management recently reported, that based on the progress in addressing the issues contained in this report, 30
new TIG awards have been made. The OIG has not evaluated the new system of controls implemented as a result
of this review.

                                                       6
Management Response.5 In response to the recommendation by the OIG, I have
suspended awarding all 2010 TIGs pending rigorous further review in light of the
recommendations in the Draft Report. Management considers strong internal controls
to be a vital part of all of its grants management and oversight operations, and is
incorporating the recommendations of the OIG, as discussed in detail below, into a
process of designing and implementing a revised system of internal control for the TIG
Program that began last year. I will consider awarding some critical TIGs in which the
failure to do so would result in shutting down technology projects that provide crucial
support to vital ongoing activities. I will resume making the remaining TIG awards only
when I am confident that sufficient progress has been made in improving internal
controls and that doing so will not unreasonably put LSC funds at risk.

Evaluation of Management Response. Management‟s actions taken and planned are
responsive to the recommendation. However, Recommendation 1 will remain open until
an adequate control system is designed and implemented.


                                     AUDIT FINDINGS
I. Legal Interpretation Issues
Pass-through grants were not awarded on a competitive basis in part because the
appropriations language needed to be clarified and policies needed to be developed.
The OIG identified two areas that need improvement:

        A.      Inconsistent Application of the Statutory Framework

        B.      Selection of Mandated Vendors Not Competitive

A discussion of each area is presented below and the corresponding recommendations
are presented at the end of the section.

A. Inconsistent Application of the Statutory Framework

LSC‟s interpretation and application of the statutory framework is inconsistent. In
practice, LSC follows the language of the statute and ignores conference report
language with respect to certain aspects of the TIG program but adheres to the more
restrictive guidance in the conference report with respect to other aspects of the
program.


5
 Unless otherwise noted, the paragraphs entitled “Management Response” or “Management Response and
Comment” are direct quotes from LSC Management’s written response to the draft report.
                                                   7
In FY 2000, Congress first appropriated money for the TIG program, earmarking funds
“for client self help and information technology” in the appropriations act. The
conference report associated with this appropriation explained that Congress intended
TIG funds “to be used to improve pro se clinic methods and acquire computerized
systems that make basic legal information and court forms accessible to pro se
litigants.” In subsequent years, Congress continued to make appropriations “for client
self help and information technology,” but provided no further explanation of
congressional intent. Conference reports in these subsequent years merely restate the
language of the associated appropriations acts. The language of the conference report
in FY 2000 likely does not represent an authoritative statement of the scope of the TIG
program.

From the beginning of the TIG program, LSC applied the language of the statute and
did not follow the more restrictive conference report language when deciding what sort
of projects to fund. In addition to pro se projects, TIG grants have funded some projects
that pertain to infrastructure, technical assistance, and certain website activities that can
not be characterized as assisting pro se litigants.

LSC more strictly adhered to the expressions of Congressional intent in the FY 2000
conference report with respect to other limitations on the TIG program. Specifically,
LSC appears to have more rigorously followed the direction in the FY 2000 conference
report that TIG funds be used to “provide… grants to Legal Service Corporation
grantees.”6 LSC chose to award its TIG funds as grants rather than contracts, and the
OIG‟s review did not identify any instance in which a TIG grant was awarded to an
organization that was not already an LSC grantee. For each year of the TIG program,
however, multiple grants have been awarded to LSC grantees with the intent that grant
funds be passed through to fund activities carried out by a few select other entities. For
example, multiple grants were awarded to LSC grantees that applied for a TIG grant “on
behalf of” an entity that was not an LSC grantee. (See Section I B Selection of
Mandated Vendors Not Competitive for a further discussion of this issue.) This practice
may weaken LSC‟s ability to secure the best value for its TIG funds and oversee
compliance with its regulations and restrictions.




6
   The FY 2000 conference report also directed that TIG grants be “made with the understanding, as
stated in the Legal Services Corporation budget request, that the grantees make a commitment to include
in their budgets for future years amounts sufficient to maintain and upgrade their equipment.” While there
is some evidence in the grant files reviewed by the OIG that LSC sought to encourage such sustainability,
it was difficult to determine conclusively whether any TIG grants were made to maintain or perpetuate
projects funded by prior TIG grants. Accordingly, the OIG does not intend to opine in this area.



                                                    8
It is not certain why LSC drifted from the language of the FY 2000 conference report
with respect to the sorts of projects to be funded by the TIG program, but strictly
adhered to that language with respect to both the disposition of TIG funds as grants
rather than contracts and the use of only current LSC grantees as being eligible for TIG
grants. It has been suggested by LSC officials that LSC‟s practice in this regard
reflected its sense of the political realities underlying the appropriations process.

Regardless of the cause, such inconsistent application of the TIG statutory framework
has resulted in the development of questionable arrangements to accomplish the aims
of the TIG program as LSC has envisioned them. Clarification of the statute may allow
for a more transparent and efficient administration of the TIG program.

B. Selection of Mandated Vendors Not Competitive

LSC‟s decision to award TIG grants exclusively to existing LSC grantees resulted in its
issuing approximately 14% ($4.5 million out of $33 million) of its grants (40 grants) to
various grantees with requirements that the majority of these funds be passed through
to third-party vendors, preselected by LSC to accomplish the purposes of these grants.
The two preselected vendors have never been subjected to any grant or contract
competition processes by LSC.

Since the FY 2000 grant cycle, LSC has awarded 40 TIG grants (many of which
involved statewide websites) to grantees with the express purpose of having the
grantee pass-though the full or a portion of the grant amount to the vendors mandated
by LSC. One of those vendors has received approximately $2.6 million and another
vendor has received approximately $2 million7 in TIG funds. LSC grantees submit a
grant application on behalf of the vendor. In a majority of the cases the grant
application appears to have been prepared by the vendor. The vendor then
corresponds directly with TIG staff during implementation, and in some instances,
submits the milestones and final reports directly to LSC. The TIG grant included funds,
approximately 2% of the total grant award (usually $2,000), to be used by the grantee
for fiscal, administrative, and compliance oversight of the vender.

In the case of statewide websites, although a TIG official stated that four grantees
received TIG grants and did not ultimately use one of the two mandated vendor‟s
website templates, the OIG noted that LSC took measures to attempt to enforce this
requirement on at least one occasion. During the review of our sampled grant files, we
noted where LSC threatened to terminate a grant if the recipient did not contract with
one of the LSC‟s preselected vendors for website development. An email from a TIG
official stated in part,
7
 In addition, at least one of these two vendors participated with several other vendors on seven other TIG
grants totaling approximately $600,000.

                                                    9
             The purpose of the statewide website portion of the TIG
             grant is for [the grantee] to adopt and implement one of the
             two LSC-approved templates…. If it is not [the grantee‟s]
             intention to use the [mandated vendor] template than [sic]
             the portion of this grant designated to fund the statewide
             website will be rescinded and $50,000.00 will be deducted
             from subsequent payments.

On the other hand, another grantee‟s final report for its initial statewide website grant,
which was written and submitted by the pass-through entity, indicated that it was not
using either of the two mandated templates. This entity received the majority of the
funds from four website grants valued at over $600,000. There is no evidence in the
grant files of the attempt to enforce the requirement for this grantee.

The use of LSC grantees as intermediaries between the Corporation and the entities
actually performing grant functions by-passes LSC‟s contracting processes, which could
have been used to award large dollar contracts on a competitive basis. Such a process
could have helped to ensure that LSC received best value for its TIG dollars. In addition
to what is essentially a lack of competition among the ultimate recipients of pass-
through TIG funding, the minimal administration fee paid to grantees may be insufficient
to ensure appropriate contracting and oversight controls at the grantee level given the
complex nature of the projects undertaken by third party vendors.

The OIG was unable to determine the specific reasons for LSC‟s selection of the
vendors it required because documentation was not available, but discussions with TIG
management officials provided an outline of the selection process, which was largely
non-competitive. TIG management officials stated that stateside website templates
developed by the two vendors for the FY 2000 grant cycle were analyzed as part of the
evaluations of proposals received from grantees. After selecting these grants and their
proposed vendors for award, LSC started mandating the use of either of these two
approved vendors for statewide website projects. The vendors were selected without
going through LSC‟s competitive bidding process for contracts. A TIG official also
stated a preference for awarding TIGs to LSC grantees and not having to open the
awards process to public vendors that likely would yield a large number of applications,
despite the fact that competition among a robust pool of applicants is ordinarily thought
of as a mechanism for securing best value.

Grants disposing of approximately $4.5 million dollars in TIG funding were structured to
funnel LSC money through nominal grantees to two preselected vendors. By adopting
this grant structure, LSC denied itself the benefits of a competitive grant-making
process with respect to these funds.



                                           10
Recommendations. The President of LSC should:

Recommendation 2. Ensure that LSC consistently interprets and applies the statutory
framework authorizing TIG grants.

Management Response and Comment.
Response: Management will ensure that LSC consistently interprets and applies the
statutory framework authorizing TIGs under applicable cannons of statutory
construction. LSC's Office of Legal Affairs (OLA) will review the statutory framework
authorizing the TIG Program under applicable law involving appropriations, statutory
interpretation, report language, statutory history, established principles of statutory
interpretation, and the budget request process.

Comment: Management takes very seriously its obligation to ensure compliance with
the statutory framework that governs all of LSC‟s operations and works closely with its
oversight and appropriations committees in both the House and the Senate to ensure
that Congress is kept fully appraised of LSC operations. Management agrees with the
OIG that “LSC follows the language of the statute” in operating the TIG Program, and
has always been of the view that the TIG structure and operation have been fully
consistent with the relevant statutory language.

If as used in the draft report, “statutory framework” is meant to refer to both the statutory
language in LSC‟s appropriations act and the FY 2000 conference report language
regarding TIG funding, Management has been of the view that it has properly
interpreted and applied the “statutory framework” but we nonetheless commit to closely
reviewing and giving serious consideration to the argument made by the OIG on this
point in the Draft Report.

Evaluation of Management Response.                Management‟s planned actions are
responsive to the recommendation. However, Recommendation 2 will remain open until
all actions are completed and the OIG is notified of the results.

Recommendation 3. Seek clarifying language in LSC‟s appropriation to either restrict
TIG grants to LSC program grantees or allow TIG grants and/or contracts to be made
directly with non-LSC grantees and vendors.

Management Response and Comment.
Response: Management will review this issue with input from OLA, OPP and the
Office of Government Relations and Public Affairs (GRPA) to determine whether
clarifying language would be needed for LSC's administration of the TIG Program, and if
so, Management will seek such clarification.




                                             11
Comment: At the inception of the TIG program, Management made the decision to
award TIGs only to existing LSC program recipients8 based on a variety of factors
including the statutory language, the conference report, communications with Congress,
grant management priorities, LSC staffing, fostering continued support for TIG funding
and the relative advantage of awarding these funds to LSC program recipients who
were already familiar with LSC‟s extensive rules and restrictions. Management agrees
with the OIG that a different structure would have presented some advantages, but
Management determined in its discretion that the trade-offs and disadvantages
outweighed those benefits at the time.

Evaluation of Management Response. Management‟s planned actions are not
responsive to the recommendation. The response amounts to a commitment to conduct
a review at a later date to decide whether and to what extent Management will seek
clarifying language. Recommendation 3 will remain open until Management‟s review is
complete and the OIG is notified of the specific actions taken in response to this
recommendation.

Recommendation 4. Ensure that grant applications submitted with the intent to pass a
significant portion of the requested grant funding to third parties detail the reason or
plan for selecting the third-party entities in question, the justification for using third-
parties to accomplish grant purposes, and the applicants‟ proposed methods for
overseeing performance by the third parties.

Management Response and Comment.
Response: Management will require that for any TIG application submitted in which a
significant portion of the grant would be used to hire a third party to assist in attaining
grant purposes, the application must provide the reason or plan for selecting the third
party, the justification for using the third party to accomplish the grant's goals and
objectives, and the applicant's proposed methods for overseeing performance by third
parties.

Comment: Currently, substantial information regarding third-party entities (including all
project partners, proposed contracts and consultants, program capacity and project
staffing, and the qualifications of the project team and partners) is furnished in TIG
applications and considered by Management.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. However, Recommendation 4 will
remain open until all actions are completed and the OIG is notified of the results.



8
 (This is Management‟s footnote to its Comments.) In this document, “LSC program recipients” refers to
entities receiving LSC basic field, migrant, or Native American grants.

                                                  12
While Management stated in its Comment that proposed contracts are “furnished in TIG
applications and considered by Management,” many contracts are not included in grant
applications but rather executed at a later date. Sometimes these contracts are
submitted and reviewed as they are required milestones, and other times contracts are
not required for submission and review. TIG staff indicated that typically only large-
dollar contracts have been subject to review.

Recommendation 5. Establish procedures to ensure that grantees who submit grant
applications follow proper contracting processes in selecting vendors to accomplish the
tasks required by the grant, including using appropriate competition and maintaining
adequate documentation; and have the skills necessary to fully monitor contract
performance.

Management Response and Comment.
Response: Management will evaluate what additional contracting processes would be
warranted for TIG grantees, including consideration of appropriate competition,
adequate documentation and monitoring requirements and determine how to adopt any
appropriate requirements or raise them with LSC's Board of Directors.

Comment: Management notes that TIG funds as stated in the TIG award letters, have
always been subject to LSC rules, regulations, guidelines, and directives, including 45
C.F.R. Part 1630 regarding allowable costs and the Property Acquisition and
Management Manual. Management will determine whether additional procedures need
to be implemented to ensure TIG grantees follow these requirements.9

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive to the recommendation. Management states in its response
that it will evaluate what additional contracting processes would be warranted for TIG
grantees. The recommendation is for LSC Management to establish procedures it
should use to ensure that proper contracting processes are actually followed by
grantees. Recommendation 5 will remain open until the TIG policies and procedures
have been completed and evaluated by the OIG.

Regarding Management‟s Comment, the issue is not whether grantees have been
notified that all TIG funds are subject to all LSC rules, regulations, guidelines and
directives. The issue is that LSC had not established adequate procedures to provide
grant oversight, whether through LSC‟s existing regulations or otherwise, to ensure that

9
  (This is Management‟s footnote to its Comments.) Management disagrees with the Draft Report‟s
characterization that LSC is “bypassing” its contracting process by awarding TIGs only to LSC program
recipients. The characterization appears to imply the decision was intended to circumvent LSC‟s
contacting process when instead the decision to award TIGs entirely to existing LSC program recipients
was made based on consideration of a variety of legal, programmatic and practical considerations as
discussed in response to Recommendation 3 above.

                                                  13
recipients of TIG funds are in fact following all LSC rules, regulations, guidelines and
directives. As for Management‟s footnote to its comments (footnote 9), the OIG is not
attributing intent. The OIG is pointing out that by using available contracting processes
LSC could have provided better oversight of TIG funds. The OIG was given no evidence
of adequate oversight by LSC Management of the contracting processes used by the
grantees to obtain the services of a third party. It is the OIG‟s opinion that many of
these grants are in fact pass-through grants that should be subject to subgrant
regulations. This interpretation is bolstered by Management‟s response to
Recommendation 6, where it references “. . . TIGs that involve paying a significant
portion of the requested grant funding to another organization that is fulfilling the grant
goals and objectives. . . .” At a minimum, however, given that operating personnel state
that the arrangements with third parties are contracts, procedures should be in place for
LSC Management to provide adequate oversight of the contracting processes used by
the grantees.

Recommendation 6. Discontinue the practice of paying an administration fee to
grantees that act as the vehicle to pass TIG funds to other organizations in the absence
of an administration/oversight plan in the grant application and continued assurances
that this plan is being carried out during the grant period.

Management Response. Management will not pay an administrative fee to grantees
on TIGs that involve paying a significant portion of the requested grant funding to
another organization that is fulfilling the grant goals and objectives, without an
administration/oversight plan (which may be provided in the grant application).
Management will require reporting on the actual implementation of that plan.

Evaluation of Management Response.            Management‟s planned actions are
responsive to the recommendation. However, Recommendation 6 will remain open until
the TIG policies and procedures have been completed and a copy provided to the OIG.

Recommendation 7. Should LSC continue mandating specific vendors, establish an
open competition process to ensure best value, or adopt an alternative model for
securing the same or similar products through LSC‟s contracting procedures, which
would similarly secure best value.

Management Response and Comment.
Response: Management is reviewing appropriate contracting procedures regarding
TIG grantee expenditures as per the responses to Recommendations 5, 6 and 34. LSC
does not believe that it has mandated specific vendors for any TIG Program awards.
However, should Management ever decide to mandate specific vendors in the future, it
will evaluate appropriate contracting processes including open competition options to
determine the most effective method of securing the best value for the funds expended.



                                            14
Comment: Management‟s Comment remarks regarding this recommendation are
lengthy. The OIG has quoted some portion of Management‟s comment and then
summarized the remarks. The full text of Management‟s Comment can be found at
Appendix I, page 5. Management stated:

      This comment provides additional information to clarify the situations
      involving the third parties that appear to be the source of the concerns
      referenced in the Draft Report ….LSC always encourages TIG grantees to
      obtain the most economical and effective services from their staff or from
      vendors.

      …. LSC never mandated that TIG grantees use a particular vendor.
      "Templates" refer to the software platform used to run the website ….
      Rather than paying repeatedly for platform development of websites for
      individual LSC program recipients, LSC determined that limited TIG funds
      would be better used if it awarded TIGs to develop two website templates
      to make available to all LSC recipients….

Management then describes the process by which it arrived at two approved templates,
one using an open source template and a limited cost vendor and the other using a
template developed by a non-profit organization that “appears to be one that the Draft
Report refers to as „mandated.‟” Management further notes that it determined it would
be best for “all the LSC program recipients in a state participate in one statewide
website with other providers of legal information and services,” and that “[s]ome of the
41 TIGs referenced by the OIG therein included projects in which grantees had
proposed using a non-profit vendor for support or enhancements to existing statewide
websites that already used that vendor's template.” According to Management‟s
comment, other grants that fall within the group discussed in the OIG‟s reports
“involve[ed] making technical expertise available for free to all LSC grantees that would
be tailored to their needs including a technical resource website, consulting, and in-
person trainings” and a “partnership [that] was established between TIG grantees and a
non-profit vendor” to maintain an “automated document assembly website system.”

Evaluation of Management Response and Comment.
Response: Management‟s planned actions are responsive to the recommendation.
While the recommendations cited in its response mainly pertain to grantee contract
procedures, Management has committed to evaluating appropriate contracting
processes to determine the most effective method of securing the best value for the
funds expended. However, Recommendation 7 will remain open until the TIG policies
and procedures have been completed and a copy provided to the OIG.

Whether the type of arrangement with vendors described by LSC Management in its
Comment remarks is considered a mandate or the exercise of an option for grantees to
use LSC-identified vendors, the fact is that two vendors have provided $4.5 million in

                                           15
similar services to 41 grantees with no documented evidence of competition maintained
at the headquarters level. To ensure that LSC is receiving the best value for TIG funds,
LSC Management needs to implement recommendations to establish open competition
for vendors providing the same or similar types of service to multiple TIG grantees.
More open competition and more robust contracting oversight will not only help ensure
best value procurement, but also allow for fresh perspectives and approaches to enter
the TIG initiative‟s market as it enters its second decade of awards.

Management‟s extensive comment provides a putative explanation for many of the
third-party payments that provide a basis for the discussion in the Report. Without
rehashing the findings and the evidence upon which they are based, the OIG observes
that the cases discussed in Management‟s comments are not as straightforward as
those comments would make them appear. In at least one instance evidenced by
email, a grantee believed it was being “required” to “subgrant” money to a third-party
entity. An example already cited in the finding shows at least one case where LSC
Management steered a grantee to a specific open-source template supported by a
particular provider, threatening to reduce the grant award. The amount of money paid
to a limited number of third-party entities suggests that grant funds are being directed in
some way to particular third-party entities. Regardless of the mechanisms involved, the
process by which third-parties became involved in the TIG program resulted in a limited
number of entities receiving a large proportion of available TIG funds. Given this
situation, LSC should exercise more active oversight to ensure that it and its grantees
receive the best available value for the funds expended.

II. Award and Administration Issues
LSC needs to fully document its policies and procedures over the award and
administration of TIG grants and establish controls to ensure that they are followed.
Specifically, the OIG identified that:

      A.   TIG Policies and Procedures Were Not Fully Documented;
      B.   Award Decisions Were Not Fully Documented;
      C.   Performance Reporting Was Not Sufficiently Monitored;
      D.   Formal Termination Procedures Were Not Adequately Established;
      E.   Actual Expenditures Incurred By Grantees Were Not Monitored;
      F.   Third-party Sustainability Plan Was Inappropriately Funded; and
      G.   Apparent Conflicts of Interest Were Not Identified.

Detailed findings in each area are presented below. Recommendations addressing
these findings are presented at the end of the section.




                                            16
A. TIG Policies and Procedures Not Fully Documented

Specific policies and procedures governing management of the TIG program were not
fully documented. While the TIG program did have a user‟s manual, this documentation
was technical in focus and did not spell out necessary or desirable internal controls and
specific grant administration procedures.

As an internal control best practice, the “Guide to Opportunities for Improving Grant
Accountability” compiled by members of the Grant Accountability Project 10, identifies the
preparation of policies and procedures before issuing grants as one of four important
internal controls. The guide states that internal control systems that are not adequately
designed or followed make it difficult for managers to determine whether funds are
properly used and whether projects funded achieve intended results.

Neither the current OPP Office Procedures Manual nor the TIG Procedures Manual fully
documents the policies and procedures to be observed in administering the TIG
program. The OPP Office Procedures Manual provides some background and overview
of the TIG program and makes reference to a TIG Procedures Manual. The TIG
Procedures Manual only provides a brief overview of the TIG program and instructions
for managing the grantee database. According to a TIG official, the TIG Procedures
Manual was created for the use by rotating TIG interns to accomplish administrative
tasks. Neither manual describes the specific policies and procedures to be followed in
administering the TIG program such as:

        Evaluating Proposals and Awarding Grants - No procedures exist to
         systematically evaluate proposals in line with stated Notice of Availability of
         Funds criteria. (See finding, “Award Decisions Not Fully Documented”)
        Monitoring Project Performance - No procedures exist to ensure projects are
         completed within established time frames. (See finding, “Performance Reporting
         Not Sufficiently Monitored”)
        Terminating Grants - No formal procedures exist to ensure that delinquent
         projects are terminated in a timely manner. (See finding, “Termination
         Procedures Not Established”)
        Monitoring Grant Funds and Budgets - No policy and procedures exist for
         grantee reporting and LSC monitoring of actual expenditures incurred. (See
         finding, “Actual Expenditures Incurred by Grantees Not Monitored”)
        Ensuring Program Integrity and Sub Grant Compliance - No policy and
         procedures exist for LSC monitoring of TIG grantees‟ compliance with LSC
         regulations. (See finding, “Subgrant Rules Not Properly Applied)



10
  The Grant Accountability Project is a collection of Federal, State, and local organizations tasked by the
Comptroller General of the United States Domestic Working Group to offer suggestions for improving
grant accountability.
                                                    17
As a result of not fully documenting the policies and procedures to be followed for the
TIG program, LSC does not maintain consistent and adequate internal control over the
administration of the TIG program. Not having an adequate internal control system
could result in program objectives not being achieved and could also result in fraud,
waste or abuse.

Recommendation 8. The President of LSC should ensure that specific policies and
procedures that govern the management and administration of the TIG program are
fully documented. These policies and procedures should establish adequate internal
control activities and processes to be followed by TIG office personnel.

Management Response and Comment.
Response: Management has already prepared a draft TIG Policies and Procedures
Manual that compiles into one document the existing policies and procedures used for
the management and administration of the TIG Program, and adds new policies and
procedures addressing issues covered by these responses to the Draft Report. These
include all internal control activities to be followed by TIG personnel for grant awards,
monitoring and oversight.

Comment: Management notes that while specific policies and procedures used to
administer the TIG Program have been in place, and some were documented in the
OPP Office Procedures Manual and the TIG Procedures Manual, they had not
previously been compiled in a single integrated manual.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. However, Recommendation 8 will
remain open until the TIG Policies and Procedures Manual has been completed and a
copy provided to the OIG.

In regard to Management‟s Comment, the TIG Policies and Procedures Manual
referenced in the response had not been created at the time of our field work,
November 2009 to June 2010. Apparently, according to Management‟s comment,
some policies and procedures were in place, but they were not documented in either the
OPP Office procedures manual or the TIG Procedures Manual provided to the OIG, nor
were they mentioned when the OIG inquired about policies and procedures.

B. Award Decisions Not Fully Documented

TIG staff did not maintain adequate documentation to fully support decisions on
awarding TIG grants. Although specific criteria11 were developed to evaluate a

11
  For each grant award cycle, LSC‟s Notice of Availability Funds (NOAF) for Technology Initiative Grants,
Review Criteria outlines the guidelines for evaluating each TIG proposal. The Review Criteria section
includes the TIG application review criteria and the relative weight of each criterion. The NOAF states
that reviewers will evaluate and rate each application using the stated criteria.
                                                   18
proposed project‟s potential for success, TIG staff does not document how the criteria
were used or what other information was used in making decisions to award TIG grants.

From the 2000 though 2006 TIG grant award cycles, external review panelists were
contracted to conduct evaluations of the TIG applications during the pre-award process.
External reviewers used scorecards to tally points for each criterion and then made
comments based on the established criteria. TIG staff stated they used these
evaluations as one piece of data to help with funding decisions. The request for
proposals indicated that the published criteria were the primary basis for awarding
grants.

Starting with the 2007 TIG grant award cycle, LSC instituted a new system of reviewing
applications. Grantees interested in receiving a TIG grant were required to submit a two
page “Letter of Intent” outlining the project‟s objectives. TIG officials reviewed these
letters of intent and determined the strongest applicants, which were then invited to
prepare a full application. According to a TIG official, this process is meant to eliminate
the weaker proposals, so grantees do not waste time putting together a full application
that is not likely to be funded.

Our review of TIG files revealed that the rationale supporting decisions to award grants
was not adequately documented. In our initial sample of 13 TIG projects, 1 project was
awarded under the letter of intent system and 12 were awarded under the review panel
system. For the one under the letter of intent system, the grant files contained no
documentation to support how published criteria were applied to the grant application.
For the 12 other projects sampled, no documentation was on file to explain how the
external reviewers‟ detailed scorecards and comments were used by the TIG staff in
making award decisions or what other information was used in making the final
decision.

For TIG grants awarded, TIG staff makes an entry in the automated system 12 as to why
the project was chosen. However, most entries are short and vague, and do not
indicate how the criteria were applied. The following are two examples of the entries
made for two grants.

                       This grant adds the capacity for pro se individuals to
                        save pertinent legal information to personal web
                        pages called „personal case account managers‟ to the
                        existing website.




12
    The Pearl system is a comprehensive database designed to organize information for each TIG grant. It
has the capabilities to allow documents related to each project to be attached to that specific TIG grant
file.
                                                   19
                    We are recommending this grant. This project has
                     strong court involvement, training, audio, and
                     translation components.

Neither of these entries constitutes adequate documentation of the selection process or
how the published criteria were applied.

One TIG official stated that all LSC reviewers do not use the review criteria and the
relative weight of each criterion to rate TIG applications. Another TIG official stated that
the criteria is kept in the back of his/her mind while reviewing the application but did not
document how the criteria were applied.

The lack of adequate documentation was caused in part by the fact that the TIG
program has not established adequate written policies and procedures that define what
constitutes adequate documentation. Also, formal policies and procedures have not
been developed to establish how to use and apply the published criteria in making grant
award decisions.

Adequately documenting the award decisions, including disclosing all criteria used and
applying the criteria in a consistent and transparent manner, helps ensure fair and open
competition for applicants vying for limited TIG funds.

Recommendations. The President of LSC should ensure that policies and procedures
are developed and implemented to:

Recommendation 9. Adequately document TIG grant award decisions.

Management Response and Comment.
Response: Management has already developed and implemented an enhanced
review system beginning with the 2010 grant cycle for all TIG applications, including
Letters of Intent, using LSC's grant management software that thoroughly documents
the review and award decision process. Each step of this review system is fully set out
in the TIG Policies and Procedures Manual referenced in Recommendation 8.

Comment: Management conducts thorough reviews of all competitive TIG applications
according to the selection process outlined in LSC‟s Notice of Availability of Funds for
Technology Initiative Grants. Each proposal is reviewed to determine how well an
applicant addresses the Review Criteria as outlined in the Notice. Per the Notice,
additional factors that may be used include a program‟s funding scope, the eligibility of
costs included in an application‟s budget, and the extent to which an application
complements or duplicates projects previously funded or under consideration by LSC or
other federal programs.



                                            20
Much of this review process is conducted in meetings between TIG staff, the OPP
Director, the Vice President for Programs and Compliance, and finally, with the LSC
President. Management agrees with the OIG‟s recommendation that better
documentation of what we believe is an exhaustive review and award decision process
is appropriate, and we have already implemented changes we believe fully address the
issue. In 2009, TIG staff prepared a 45-page report detailing its review process and
documenting their analysis based on each review criteria. In 2010 this documentation
process was incorporated into the new LSC grants management system, which stores
reviewer assessments for each review criteria as well as the other factors outlined
above and documents the review comments and award recommendation of the Director
of the Office of Program Performance, the Vice President for Programs and Compliance
and the LSC President.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. However, Recommendation 9 will
remain open until the TIG Policies and Procedures Manual has been completed and a
copy provided to the OIG, and all other planned actions are implemented.

Regarding Management‟s Comment, while Management expressed the belief that there
was an exhaustive review and award decision process, Management also agreed with
the OIG‟s recommendation that better documentation of the process is necessary.
Management has reported taking actions to improve the documentation of the review
and award decision process starting with the 2010 grant cycle for all TIG applications.
These steps include implementing a new grant management software system. The
steps taken are positive and should address the documentation issues identified in this
report.     Once the draft TIG Policies and Procedures Manual is finalized and
implemented, the OIG will review the manual and the new software system to ensure
that all reasonable documentation requirements are met.

Recommendation 10. Evaluate all TIG grant applications, including Letters of Intent, in
a consistent manner, based on established criteria.

Management Response. Management has already prepared a draft TIG Policies and
Procedures Manual for the management and administration of the TIG Program that
outlines and documents the evaluation of all TIG applications and Letters of Intent,
including how to use and apply the published review criteria, to ensure that reviews and
funding recommendations are conducted in a consistent manner, based on the
established criteria. In addition, the review system developed in LSC's grants
management system provides documentation of the step-by-step review and evaluation
procedures throughout the grant application and award process. LSC will also examine
the Notice of Availability of Funding, which publishes the review criteria, to ensure that it
appropriately reflects the written policies and procedures for applying the published
criteria in making grant award decisions.


                                             21
Evaluation of Management Response.               Management‟s planned actions are
responsive to the recommendation. However, Recommendation 10 will remain open
until the TIG Policies and Procedures Manual has been completed and a copy provided
to the OIG, and all other planned actions are implemented.

C. Performance Reporting Not Sufficiently Monitored

While each TIG grant is awarded with performance reporting requirements, in practice,
LSC does not ensure that these requirements are met. Milestone reporting is often
delinquent, adjustments to milestones are not always requested, and when adjustments
are requested by grantees, they largely occur after the milestone date has passed.
Where required by LSC, quarterly reports are frequently not submitted, and if submitted
are largely delinquent. Final grant reporting often occurs well after the grant term‟s
scheduled expiration.

TIG grant assurances for some grants state that, within 30 days of the end of a payment
period, milestone completion reports should be submitted and that within 30 days of the
end of each quarter, the recipient shall submit a quarterly report. Milestone changes,
due date modifications, significant problems, or plan modifications also must be
communicated to and approved by TIG staff in a timely manner.

According to a TIG January 2010 presentation to the LSC Board of Directors, typical
projects last 12 to 24 months plus an additional 3 months for final report submission.
LSC monitors the progress of TIGs by reviewing milestone reports and quarterly reports
(quarterly reports are only applicable for TIGs issued from 2002 through 2008 13)
submitted by TIG recipients.

For the 13 grants in our sample, 10 missed filing 1 or more milestone reports required
by the established payment period due dates. Overall, 30 of 53 possible payment
periods had late milestone report submissions (57%), by an average of 10.5 months
late. Furthermore, the procedure to request milestone adjustments was not always
carried out in advance of the milestones‟ due dates. Only two of the five grants
receiving milestone adjustments had documentation available concerning the request
and approval of the adjustment.14 Only one of the two grants which had a milestone
adjustment request was received in advance of the milestone due date.
13
   For the last two grant cycles in 2009 and 2010, TIG has opted to create milestone schedules with more
finite, incremental tasks. OMB‟s Chief Performance Officer cites this practice of “breaking projects down
into manageable chunks with well-defined milestones to make sure they deliver tangible benefits to end
users” as one of 5 best practices that can reduce the risk, cost and length of IT projects.” While the TIG
staff has adopted a promising practice, TIG needs to develop procedures to rigorously enforce the timely
completion of milestone report submissions.
14
   No request documentation was evident in the email directory provided to us by TIG; TIG officials
informed us that due to staff turnover and the fact that emails were stored in different places at times, all
emails were likely not included in the grant files and thus, not provided.
                                                     22
The quarterly reporting requirement is often ignored. Many such reports arrive late and
only after multiple reminders. Of the eight grants in our sample subject to quarterly
reporting requirements, three grant files indicated that no quarterly reports were ever
submitted. For the remaining five grants subject to quarterly reporting, four submitted
all reports on time and one submitted all quarterly reports after the grant term had
ended.

Overall for the 13 sampled TIG grant files, 7 grants were completed on time, 4 grants
were completed 2 years late on average, and 2 grants were terminated. While delays
are inevitable with some technology innovation projects, ensuring that required reports
are received in accordance with grant assurances helps provide oversight of the grants,
ensures that projects are being accomplished within a reasonable time frame, and helps
identify and address problems as early as possible.

Recommendation 11. The President of LSC should develop formal written procedures
for ensuring that all reports required by grant assurances are received in a timely
manner. These procedures should include provisions for grantees to submit milestone
adjustment requests using the online grants management system, along with TIG staff‟s
approval of such requests as well as for enforcing penalties, including initiating
termination processes, if reports are not received timely.

Management Response. Management has already prepared a draft TlG Policies and
Procedures Manual for the management and administration of the TIG Program that
includes formal written procedures for ensuring that all reports required by grant
assurances are received in a timely manner. We are working on building the capability
in LSC's online grants management system to allow TIG grantees to submit milestone
adjustment requests via the online system and for LSC to send automated email
reminders to TIG grantees about reporting deadlines. TIG staff will continue sending
email reminders until the automated system is developed. Training on reporting
requirements is conducted for new TIG grantees at the TIG Conference and via online
webinars. LSC will conduct an additional online reporting requirements training webinar
prior to the TIG grantees' first reporting deadline, and will record it and post it on the TIG
website. Reporting policies and procedures for TIG grantees will be posted online,
outlining their responsibilities and the penalties, including termination procedures, for
non-performance on TIG projects.

Evaluation of Management Response.             Management‟s planned actions are
responsive to the recommendation. However, Recommendation 11 will remain open
until the TIG Policies and Procedures Manual has been completed and a copy provided
to the OIG.




                                             23
D. Formal Termination Procedures Not Established

Formal termination procedures have not been adequately established for TIG grants
and LSC‟s regulations do not define binding termination procedures for the TIG
program. While the TIG Procedures Manual refers to termination notices in two
sections, it does not provide comprehensive or adequate termination procedures. The
lack of adequate termination procedures results in non-performing grants not being
terminated timely, and when some of the grants are terminated, the funds obligated
have not been made available to other viable projects in a timely manner.

LSC‟s general termination regulation does not establish binding termination procedures
for TIG grants because it is limited to reductions in a “recipient‟s level of financial
assistance,” where “financial assistance” refers to “annualized funding … for the direct
delivery of legal assistance to eligible clients.” Compare 45 C.F.R. §1606.3(a)(1) with
45 C.F.R. § 1600.1. The TIG Procedures Manual (undated) does not fill this gap in
LSC‟s regulations. While this manual does include a section entitled “Processing a
Termination Letter,” this section covers clerical details such as the officials to whom
copies of letters should be provided and how to process the mailing of termination
letters. Another section of the TIG Procedures Manual, entitled “Welcome to the TIG
Department,” contains a three sentence paragraph that indicates that a 60-day email
will be sent to the grantee warning that the grantee needs to show dramatic
improvement and a good reason for LSC not to terminate the grant. This section also
states if the grantee fails in this regard, the grantee will receive a 30-day termination
letter notifying it of LSC‟s decision to terminate the grant. While not a written procedure
contained in the TIG Procedures Manual, TIG staff indicated that starting in August
2008 the LSC President instituted the requirement that the LSC President approve a
memo to the Comptroller indicating the grant is terminated and specifying the financial
terms of the terminations.

Measures currently taken to terminate TIG grants are ad-hoc and informal, with no set
time periods or written guidelines for determining when to: consider termination; send
the 60-day email warning the grantee of potential termination; or follow up with the 30-
day termination letter. When termination was initiated, the TIG program did not have a
formal process to ensure that all required actions were taken to release funds for other
viable projects. The TIG program has no formal policy providing for: the potential for
reallocation of property purchased with TIG funds in the event of a termination; a final
evaluation of a terminated TIG grant; or a final accounting for TIG funds previously
disbursed to terminated grantees. The TIG Grant Assurances do not contain any
reference to a mandatory close-out procedure like that required of basic field grantees.
Finally, the TIG program has no formal policy assigning decision-making authority to
specified officials to terminate TIG grants or reserving final decision-making authority to
the LSC President or designee.


                                            24
As a result of the TIG program‟s ill-defined termination policies, LSC did not always take
all required actions in a timely manner to release the funds of terminated grantees for
other viable projects. TIG officials routinely informed grantees that they would be
allowed to keep TIG funds already disbursed and items purchased with TIG funds
without obtaining any final accounting or following any closeout process. In some
instances, a memorandum authorizing the reallocation of funds from a terminated grant
was not timely sent to the LSC President for approval so that the Comptroller could
close out the remaining balance and reallocate the funds to the TIG account to be used
for future TIG grants.

LSC‟s financial statement audit for FY 2009 reported unexpended TIG balances of
$2.78 million for 75 grants. This prompted the TIG staff in December 2009 to consider
termination proceedings for 17 outstanding grants. At that time, two of the grantees had
already been sent termination letters in June of 2007, but the final termination memo,
which would have authorized the unspent funds to be released for future use, had not
been signed by the LSC President. As of August 2010, LSC was in various stages of
the termination process for the 17 grants15.

For the two grantees identified above, termination letters were sent by the TIG staff in
June 2007. According to a December, 2009 memo from an OPP official, only the LSC
President‟s review and signature on the grant termination/reduction memos to the LSC
Comptroller remained to complete the process. Neither grant files reviewed contained
any financial or analytical support for the decision to not require any further action by
the grantees nor an accounting for the funds spent under the grant.

a. A review of the documentation for one of the grants showed that LSC decided not to
   seek reimbursement for any of the $15,037 in funds paid to the grantee prior to the
   termination, without any final accounting to support that decision. The grantee
   ceased being an LSC basic field grantee in September of 2007. A termination letter
   dated June 19, 2007, indicated that $7,000 remained on the grant to be paid out.
   Due to the termination, the unexpended funds would be reallocated back to the
   LSC‟s TIG account and made available to other TIG applicants, and “LSC will not be
   seeking reimbursement for funds already expended on [the] project.”

b. For the other grant, an April 2010 note in the TIG program‟s data base reported that
   the grant funds not disbursed to the grantee ($57,500) had not yet been reallocated
   to the general TIG account, but that a memorandum authorizing the reduction had
   just been drafted and was awaiting the President‟s approval. As in the case of the
   first example, TIG officials communicated to the grantee LSC‟s intention not to seek
   reimbursement for any of the $111,603 in funds already paid under the grant.

15
    During the audit, one of the grantees completed the majority of the TIG project for which it received
grant funds. While the grant was not terminated, unspent monies for the portion of the grant activity not
accomplished remained assigned to the grant. A memo to reduce the amount for the grant was prepared
by the TIG staff in June 2010.
                                                   25
A full accounting of all expenditures made on terminated TIG projects is necessary to
ensure that LSC funds have been properly used. However, LSC‟s stated practice is to
obtain an accounting of expenditures for only the most recent payment to the grantee,
and that practice has been followed inconsistently. In some instances, such as those
described above, even this limited accounting was omitted.

In addition to the 17 grants referenced above, the OIG reviewed 5 grants that had been
terminated previously. These grants totaled $818,030 in TIG funds, of which $168,596
was available for reallocation by LSC to its TIG account. Based on available grant files,
the OIG found financial documentation supporting the grantee‟s most recent payment
expenditures for only two of the five terminated grants and no financial documentation
supporting the grantee‟s expenditures of any other payments received.

Recommendations. The President of LSC should:

Recommendation 12. Develop detailed termination procedures including timeframes to
complete each significant action associated with terminating TIG grants such as
reallocating unexpended funds back to the TIG account for use in making other TIG
grants. These procedures should require periodic reporting by TIG staff to LSC senior
management of the status of each grant in the process of being terminated. Also, the
procedures should require the Office of Legal Affairs‟ involvement when terminating
grants to ensure that LSC‟s interests are properly protected.

Management Response and Comment.
Response: Management is developing detailed termination procedures and will
carefully consider these suggestions. These procedures will clearly distinguish among
terminations, voluntary relinquishments, expirations, and extensions of deadlines. Once
these procedures are adopted, Management will incorporate them into the TIG Policies
and Procedures Manual. Termination procedures may require rulemaking by the LSC
Board of Directors. Thus, Management will determine which procedures Management
can put in place and which procedures will require Board action to promulgate.

Comment: Management has had in place basic procedures that it has followed to close
out a TIG project when a TIG grantee has not submitted documentation in a timely
manner or a grant term has expired at the end of the grant term period (usually 12 or 18
months).16 Because of the structure of the TIG Program, LSC is able to retain control of
most TIG funds pending performance by the TIG grantee. After the initial payment,
funds are held by LSC and not released until the TIG grantee submits required reports.
Thus, even without any formal close out or termination, the grantee cannot receive most


16
  (This is Management‟s footnote to its Comments.) Management agrees with the OIG that the LSC
termination regulation, 45 C.F.R. Part 1606, applies to annualized grants and not to TIG awards.

                                                 26
of the grant funds awarded until it has demonstrated the required progress on the
project for which the grant was made.

Furthermore, Management has not involuntarily terminated any TIGs under those
procedures. A termination would occur when LSC ends a grant prior to the expiration of
the grant term. Rather, certain TIGs have been voluntarily surrendered or relinquished
by grantees who found that they could not complete the project for which the grant was
made, or LSC has used these "termination" procedures to functionally grant extensions
after the end of the grant term period. Although the TIGs had expired, and LSC had no
obligation to provide extensions, LSC used these procedures to provide grantees
additional opportunities and deadlines to complete the work and reporting in order to
obtain the remaining funds from the grant when LSC determined that doing so was in
the best interest of the TIG Program and the goals of the individual grant.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. However, Recommendation 12 will
remain open until the TIG Policies and Procedures Manual has been completed and a
copy provided to the OIG.

Management‟s additional comments which include the statement that “A termination
would occur when LSC ends a grant prior to the expiration of the grant term” has little
applicability for TIG grants, as our review indicated a high likelihood of TIG grants
routinely going beyond their grant terms. The OIG questions the extreme latitude
afforded grantees from LSC‟s practice of using “these "termination" procedures to
functionally grant extensions after the end of the grant term period” and “to provide
grantees additional opportunities and deadlines to complete the work and reporting in
order to obtain the remaining funds from the grant.” The following case in point
demonstrates the pitfalls of using “termination” procedures in this manner.

A TIG grantee completed its first and second milestones (out of 4) for a statewide
website in October 2003. No more milestones were completed in 4 years and a
termination letter was sent to the grantee in April 2008. The grantee sent an email in
early 2009 to see if it was eligible for a 2009 renewal website grant. A February 2009
email response from TIG staff indicated that “while you received the 30 day letter, the
grant has not actually been terminated yet.” The email said that if the final reporting
could be done within 30 days, the grantee could receive the final $10,000 of the 2001
grant, and thus be eligible to apply for a renewal website grant for the 2009 TIG cycle.
The final evaluation reporting for the 2001 grant was never submitted, however, and a
termination letter was sent again in April 2010. As of November 2010, this grant is
listed in TIG‟s online system as suspended and the $10,000 balance remains. While
LSC Management indicates that basic procedures are in place that have been followed
to close out a TIG project when a TIG grantee has not submitted documentation in a
timely manner or a grant term has expired at the end of the grant term period, at least in


                                           27
the example above the procedures and/or their application have not always been
effective in doing so.

Recommendation 13. Ensure that clear authorities are established for terminating
grants. Since the President of LSC awards the TIG grants, we suggest that the
President of LSC or designee approve terminating grants.

Management Response and Comment.
Response: Management will include clear authorities for terminating TIGs in the
actions taken in response to Recommendation 12 above. Management will include the
suggestion regarding the role of the President in the review and recommendations.

Comment: The current TIG procedures regarding terminations (which have been in
place since August 2, 2007) require that the President of LSC approve any and all TIG
terminations.   As discussed above in response to Recommendation 12, these
procedures will be reviewed and revised (possibly subject to formal rulemaking). As with
45 C.F.R. Part 1606, LSC's termination regulation for annualized grants, the role of the
President might be reserved for review on final appeal rather than for making the
termination decision.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. However, Recommendation 13 will
remain open until the TIG Policies and Procedures Manual has been completed and a
copy provided to the OIG.

Regarding Management‟s Comment, the finding indicates that the termination
procedures were not well defined. For example, the report states the termination
procedures did not require a final accounting of the TIG funds spent and did not have a
formal process to ensure that all required termination actions were taken to release
funds for other viable TIG projects. The report also includes examples where
termination letters were sent to grantees in June 2007 and the unspent funds had not
been released for use for other TIG awards as of December 2009. Neither of the files
contained in these examples contained an accounting of the TIG funds spent.

Recommendation 14. Develop specific procedures when terminating grants to require
grantees to account for all funds and items purchased to ensure that the money was
spent in accordance with the grant terms.        These procedures should include
requirements to recover unspent funds and to determine if the items purchased can be
used by other grantees receiving TIG grants.

Management Response and Comment.
Response: Management will consider specific procedures regarding TIG grant
terminations to require TIG grantees to account for all funds and items purchased to
ensure that the money was spent in accordance with the grant terms. In developing any

                                          28
such procedures, Management will include consideration of requirements to recover
unspent funds and making determinations whether items purchased can be used by
other LSC program recipients receiving TIG awards.

Comment: Management notes that all TIG funds have always been subject to all LSC
rules, regulations, guidelines and directives, as stated in TIG award letters. This would
include 45 C.F.R. Part 1630 regarding allowable costs and the Property Acquisition and
Management Manual. As such, Management's review will determine if additional
procedures are needed for TIG terminations based on the nature of the TIG Program
and whether recommendations to the Board are in order for additional rulemaking.

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive to the recommendation. The OIG recommended that
specific procedures be developed, not simply to consider such procedures, to require
that grantees account for all funds and items purchased when a TIG grant is terminated.
The recommendation was intended to increase oversight of LSC grant funds.
Recommendation 14 will remain open until Management completes all actions and
notifies the OIG of the actions taken.

Regarding Management‟s Comment, the issue is not whether TIG funds are subject to
all LSC rules, regulations, guidelines and directives. The issue is that LSC had not
established adequate procedures to provide grant oversight to ensure that recipients of
TIG funds are in fact following all LSC rules, regulations, guidelines and directives.

Recommendation 15. Require a lessons learned report be prepared by the grantee so
that the circumstances that caused the grant to be terminated can be avoided or at least
can be identified as early as possible in order to conserve scarce TIG funds.

Management Response. Management will require a lessons-learned report by the TIG
grantee as part of the procedures associated with TIG terminations. If the grant is being
terminated for incomplete reporting or if LSC determines that a lessons-learned report
will not be forthcoming from the grantee, TIG staff will prepare and document a lessons-
learned report.

Evaluation of Management Response.             Management‟s planned actions are
responsive to the recommendation. However, Recommendation 15 will remain open
until the TIG Policies and Procedures Manual has been completed and a copy provided
to the OIG.

Recommendation 16. Amend the TIG grant assurances to reflect the need for a final
accounting and a lessons learned report in the event the TIG grant is terminated.




                                           29
Management Response. Beginning with 2010 TIG awards, Management will include
in the TIG Grant Assurances the requirement for a final accounting and a lessons-
learned report, as described above, in the event the TIG award is terminated.

Evaluation of Management Response.         Management‟s planned actions are
responsive to the recommendation. However, Recommendation 16 will remain open
until all actions are completed.

Recommendation 17. Publish termination policies and procedures to provide TIG
grantees with adequate notice of applicable rules.

Management Response. As described in response to Recommendations 12-16
above, Management is working to develop detailed policies and procedures applicable
to TIG award terminations, voluntary relinquishments and expirations, to be included in
the TIG Policies and Procedures Manual. Once adopted, the policies and procedures
affecting the TIG grantees (as opposed to internal LSC procedures) will be published on
the TIG website to provide TIG recipients with adequate notice of applicable rules.

Evaluation of Management Response.             Management‟s planned actions are
responsive to the recommendation. However, Recommendation 17 will remain open
until the TIG Policies and Procedures Manual has been completed and a copy provided
to the OIG.

E. Actual Expenditures Incurred by Grantees Not Monitored

A method to perform financial oversight of TIGs was not established by LSC. Although
TIG recipients prepared budgets detailing how TIG funds were to be used, they were
not required to report the actual expenditures incurred on the TIGs. Also, when the
amount of the grant awards differed from the amount proposed, TIG staff did not
document the adjustments to the proposed budgets. Thus without the reports of
expenditures and accurate budgets, TIG staff were not able to perform financial
oversight by comparing actual expenditures incurred by grantees to budget estimates.

Out of the 13 grants reviewed, none documented that the TIG staff examined
expenditures incurred by grantees. Grantees did not report to LSC on actual
expenditures compared to budgeted amounts incurred related to TIG projects. 17
Currently, grantees maintain all financial information supporting grant expenditures on
site. The TIG staff conducts very few site visits due to staff size limitations, and when
visits do occur, the objectives of the visit do not include the review of documentation
supporting actual expenditures. Also, there is no requirement to prepare a written
report on what was done or what was found during a TIG site visit. The OIG was

17
   During the course of our audit we reviewed over 150 grant files based on specific attributes in addition
to our comprehensive review of documentation related to our primary same of 13 grants. Our review only
identified 3 cases of actual expenditure documentation included in the files.
                                                    30
informed by TIG officials that the only time grantees may be asked to provide an
accounting of grant funds is if the grant is terminated prior to completion, in order to
determine how much, if any, is owed back to LSC from the most recent payment period.

For all 13 grants reviewed, there was no evidence of a final approved budget or
adjustments to the proposed budgets. For three grants reviewed, the proposed budgets
submitted by the grantees were not changed even though the grants were awarded for
different amounts than requested.. The amount awarded was less than the amount
requested for two grants and increased for the remaining grant. For example, one
grantee submitted a proposal for $500,000. The award amount was only for $451,818,
which represented a $48,182 decrease. Another grantee submitted a proposed budget
of $500,000, but only $391,270 was awarded. There were no adjusted budget
documents for either of these projects showing how the decrease affected the proposed
budget line items.

For the third grantee, the TIG grant was awarded for $451,855. Four years later and a
year after the original grant term‟s expiration, LSC added an additional $50,000 to the
grant. There were no adjusted budget documents for this project showing how the
increase affected the proposed budget line items. Adjusted budgets were not
documented or readily available for review.

To assist grantees applying for TIG awards, LSC issued “Guidelines for Preparing
Applications”. This document instructs applicants how to submit an application and
includes requirements for a proposed budget and narrative showing how they are going
to spend the awarded grant funds. According to this document, if the project and
related application are accepted, TIG staff may approve the budget or make
adjustments they deem necessary. LSC grant assurances state: “All Funds disbursed
by LSC pursuant to this grant shall be used solely for the project for which this grant is
being made.” However, as explained above, adjustments to the budgets were not
always documented.

The main reason budgeted amounts were not compared to actual expenditures was that
there is no policy in place requiring grantees to report on actual expenditures. By not
monitoring actual expenditures, LSC cannot tell whether all TIG grant funds awarded
are being spent in accordance with budgets or the intent of the grant.

Recommendations. The President of LSC should establish written requirements to
ensure that:

Recommendation 18.      An adequate system of financial oversight is established for
TIGs.




                                           31
Management Response and Comment.
Response: Management has already prepared a draft TIG Policies and Procedures
Manual for the management and administration of the TIG Program that outlines and
documents all financial oversight activities for TIGs.

Comment: Management notes that TIGs have always been subject to the LSC fiscal
oversight system and all LSC rules, regulations, guidelines, and directives, including 45
C.F.R. Part 1630 regarding allowable costs and the Property Acquisition and
Management Manual. Additional financial oversight procedures have been implemented
and are discussed in Responses/Comments to Recommendations 19-22. Management
will also determine whether still additional procedures are needed.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. However, Recommendation 18 will
remain open until the TIG Policies and Procedures Manual has been completed and a
copy provided to the OIG.

In regard to Management‟s Comment, the issue is not whether TIG funds are subject to
all LSC rules, regulations, guidelines and directives. The issue is that LSC had not
established adequate procedures to provide grant oversight to ensure that recipients of
TIG funds are in fact following all LSC rules, regulations, guidelines and directives.

Recommendation 19. A final budget is prepared and approved for each project that
agrees with the amount of the award. Anytime adjustments are made to the award
amount or approved budgets, new budgets should be formulated and approved.

Management Response and Comment.
Response: Each 2010 TIG award package will include an approved budget that
corresponds with the amount of the award. LSC has updated the online grants
management system to capture the submission and approval of final budgets. LSC will
add a new TIG grant assurance, modeled on a similar provision in the Federal "common
grant rule,"18 to the 2010 TIG awards to require TIG grantees to submit and receive
approval of a new budget any time adjustments are made to the award amount or
approved budgets.

Comment: TIG applications are already required to include a detailed budget listing all
proposed expenditures in 15 categories, broken down by the funding source for these
expenditures (TIG award, program contribution, other LSC-funded partners and non-

18
  (This is Management‟s footnote to its Comments.) The "common grant rule" is the colloquial term for
regulations issued by the Office of Management and Budget formally entitled Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and Other Non-
Profit Organization. 2 C.F.R. Part 215, (which replaced former OMB Circular A-ll0). The particular section
Management is looking to for the new grant assurance is §215.25, Revision of budget and program plans.

                                                   32
LSC funded partners). In addition, the budget narrative portion of the application form
requires additional details on each item in the budget, such as who is covered by
personnel costs or equipment to be purchased. After the funding decision is made by
the LSC President, TIG staff works with the applicant to revise the budget if the award
amount is not what was requested, or if any budget revisions were recommended
during the review process. Any such revisions will be documented in the grants
management system.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. Recommendation 19 will remain open
until the new TIG grant assurance similar to the Federal “common grant rule” is actually
created and included in the grant assurances, and all other planned actions are
implemented.

Regarding Management‟s Comment, while the applicants are required to submit
budgets with applications for TIG grants, LSC did not have a method to perform
financial oversight. Actual expenditures of TIG funds were not required to be reported
to LSC. As indicated in the finding, when amounts differed between the budgeted
amount and the awarded amount, the file contained no information as to which and by
how much each line item in the budget was impacted. In one of the files reviewed, LSC
added $50,000* to a TIG grant, a year after the original TIG grant expired, but the grant
file did not contain an approved line item budget as to how the additional TIG funds
were going to be used.

Recommendation 20. TIG grantees adhere to budgets. This can be done along with
the milestone reports by setting budgets for each milestone and require reporting of
actual expenditures by milestone.

Management Response. Management will establish written requirements to ensure
that TIG grantees adhere to budgets. LSC will also add a new TIG grant assurance to
the 2010 TIG awards that requires actual budget expenditures be submitted with the
final payment request. In addition, LSC will hold back at least 20 percent of the grant
amount as the final payment to ensure compliance.

Evaluation of Management Response.           Management‟s planned actions are
responsive. However, Recommendation 20 will remain open until the TIG Policies and
Procedures Manual is completed, the new TIG grant assurance is added, and the OIG
is provided a copy of each.

Recommendation 21. TIG funding is not increased without the written approval of the
President of LSC or designee.

*The original version of this report incorrectly indicated that $450,000 had been added to a TIG grant
instead of $50,000, the correct amount.

                                                    33
Management Response and Comment.
Response: Since August 2, 2007, the approval of the President of LSC has been
required to increase or decrease any TIG award. This requirement will be continued and
has been incorporated into the draft TIG Policies and Procedures Manual.

Comment: Management notes that page 19 of the Draft Report [page 31 of this report]
discusses an instance where LSC added an additional $50,000 to a grant, apparently
without any formal budget documentation showing how the budget increase affected the
proposed budget line items. It should be noted, however, that although there was no
formal budget documentation, there were emails, a payment schedule and milestones
that fully documented the transaction, which were filed in the requisite TIG grant folder.
Under the new procedures, this type of situation will be more formally handled as a
modification of the affected grants.

Incidentally, the transaction occurred when the initial TIG grantee determined that it
could not complete the milestones to develop a software tool to benefit self-represented
clients. Because LSC believed this software tool had national implications, it worked
with another grantee to ensure that the project could be completed. Thus, LSC
"transferred" the funds allocated to the initial grantee to the new grantee who agreed to
complete the project.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive. However, Recommendation 21 will remain open until the TIG
Policies and Procedures Manual has been completed and a copy provided to the OIG.

Regarding Management‟s Comment, Management acknowledges that in the case of the
TIG grant cited in the report receiving $50,000, there was no formal documentation
showing how the budget increase affected the proposed budget line items.
Management also states that the file did contain emails, a payment schedule and
milestones that fully documented in the transaction. The OIG does not agree with this
conclusion. The payment schedule is not tied to the budget or the expenditure of TIG
funds by the grantee. The milestones are what trigger the payment of TIG funds from
LSC to the grantee. The milestones are also not tied to the budget. While these
document provide a schedule of how much and when money will be paid to the grantee,
as used by LSC they do not constitute adequate financial oversight.

Recommendation 22: Include as part of all LSC oversight visits the option to review and
validate TIG grant information.

Management Response and Comment.
Response: The Office of Program Performance will include the review of outstanding
TIG projects as a part of its on-site Program Quality Visits. In addition, there will be an
increase in the number of visits by TIG staff specifically to review and validate TIG


                                            34
project information. The Office of Compliance and Enforcement will include TIG
expenditures as a part of their onsite fiscal reviews of LSC funds.

Comment: Management added a new TIG Program Counsel position in August, 2010,
which will enable TIG staff to conduct more onsite program visits.

Evaluation of Management Response.            Management‟s planned actions are
responsive to the recommendation. However, Recommendation 22 will remain open
until planned actions have been fully implemented and documented into the various
offices‟ policies and procedures.

F. Third-Party Sustainability Plan Inappropriately Funded

One third-party entity was provided TIG funds and used a portion to develop a plan for
its own sustainability; the LSC grantee acting as a pass through did not use TIG funds
to develop a plan to sustain the TIG project independent of TIG funding. As with all TIG
grants, the LSC grantee was required to provide a sustainability plan to demonstrate
how it could continue the project independently, that is without TIG funding in the future.
The requirement for a sustainability plan is outlined briefly in the annual “Notice of
Availability of Funds,” which states that every grant application needs to include a
sustainability plan for the purposes of continuing the project without TIG funding and
that grant reviewers will be looking for the sustainability plan in the grant application.
No further direction or guidance for how a sustainability plan should be structured is
included.

The sustainability plan identified in this finding was submitted by the grantee, as
required by the grant, but written by and for the benefit of a third-party entity rather than
the TIG grantee. The grantee applied for and received a 2008 TIG grant on behalf of
the third-party entity for the purposes of conducting technical training classes and
technology planning sessions in 2008. To meet the requirement for a sustainability
plan, the third-party entity was provided $15,000 of TIG funds (approximately 18% of
the grant) to pay a financial consultant to explore ways that the third-party entity, rather
than the grantee, could become financially independent of TIG funding.19 The final
evaluation report for the grantee‟s 2008 TIG grant included recommendations made by
this financial consultant to the third-party‟s Board of Directors. The chairman of the
third-party entity‟s Board of Directors is an employee of the LSC grantee which was
awarded the TIG grant in question and the LSC grantee employee who signed the grant
application. (See finding below on apparent conflicts of interest.) The financial
consultant recommended pricing models and other business tactics to make the third-
party entity more attractive to the consumer, primarily LSC grantees and others, so that

19
   In its application for a 2007 TIG, the grantee included time for the third-party entity to seek a financial
consultant in its grant application. The final report for the grantee‟s 2007 project indicated that the third-
party entity did, in fact, spend time interviewing potential financial consultants. However, there is no
indication of how much TIG money was expended in the search.
                                                     35
the third-party entity would be able to survive independently of TIG funding. Specific
examples of recommendations contained in the sustainability plan include the following:

       [1] Immediately start charging for courses. Begin charging $35 per course
       immediately…. Start building an individual membership demand that can be
       leveraged to sell an organization. Collect organization name for all who attend
       any training to establish good targets for organizational memberships.

       [2] Launch Technology planning service. Reach out to LSC-funded
       organizations that have grant deadlines pending this year and are required
       to have a technology plan to meet the LSC Baseline Requirements. Five
       organizations interviewed indicated a need for this kind of service from
       [the third party entity] and a willingness to pay for it, some at a statewide
       level for all their organizations.

The sustainability plan contained four other recommendations, all of which related to
how the third-party entity could improve its financial position.

LSC was provided a copy of this sustainability plan with the finalized recommendations,
but the OIG found no evidence that LSC officials objected to or questioned the use of
TIG funds for this purpose. Nor did LSC have any evidence that the grantee,
purportedly charged with overseeing the third-party entity‟s use of its grant funds,
questioned this expenditure. In the case of this grant, the third-party entity used LSC
funds to plan for its own financial survival with no options in the report to sustain the
training for grantees other than through the third-party entity. This use of TIG funds is at
odds with the apparent purpose of requiring each TIG grantee to prepare a
sustainability plan. Accordingly, the OIG will refer the $15,000 as a questioned cost to
LSC Management pursuant to 45 C.F.R. Part 1630.

Lastly, concerning sustainability plans in general, we discovered two instances where
the milestones requiring submission of a sustainability plan were waived. We did not
find documentation to support the reasonable justification of these waivers in the grant
files.

Recommendations. The President of LSC should:

Recommendation 23. Develop a more detailed description of what is expected from
TIG grantees when preparing a sustainability plan required by TIG grants.




                                            36
Management Response and Comment.
Response: A detailed description of what is expected from TIG grantees when
preparing a sustainability plan, when such a plan is required by a TIG project, has been
incorporated into the draft TIG Policies and Procedures Manual.

Comment: It should be noted, however, that while TIG applicants are required to
address project sustainability (one of the review criterion) in their TIG applications,
formal sustainability plans have been required only for approximately two percent of TIG
projects. In those limited instances, due to the national scope of the TIG project, the
development of a sustainability plan (that can cost an additional $15,000-$20,000) has
been requested or added to the grant. Sustainability plans have the goal of making the
functions of the project sustainable without additional TIG funding, and are not to make
any individual entity that might provide services in support of those functions
"sustainable."

LSC funded a few of the TIG grantees managing these national projects that support
LSC program recipients' essential infrastructures to work on developing formal
sustainability plans for these projects, regardless of which entities would manage them.
In fact, over the course of the TIG Program, some of these projects have moved from
one entity to another and have been managed by different TIG grantees. In at least one
instance, a project has successfully become self-sustaining, continuing to provide
valuable technology services to legal aid programs without any additional TIG funding.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive to the recommendation. Recommendation 23 will remain open
until the TIG Policy and Procedures Manual has been completed and a copy provided to
the OIG.

Regarding Management‟s Comment, the OIG is concerned that this response appears
to minimize the extent to which LSC financial support for sustainability planning
overlaps with financial support for the long term sustainability for third party entities.
Management states that the goal of a sustainability plan is to make the “functions of the
project sustainable” and not any “individual entity,” but by financially supporting the
sustainability of an entity‟s project, LSC must with the same money be supporting the
long term sustainability of the entity itself, particularly where the entity in question exists
in large measure to perform TIG projects. Aiding in the sustainability of one of the
entity‟s projects or the entity as a whole are inappropriate uses of LSC funds where the
sustainability plan developed provides for the survival of the third party entity‟s project at
the expense of LSC‟s legal services grantees. As in the case cited in the finding, a
financial consultant was hired to improve the financial standing of a vendor, not LSC or
its grantees. In such cases, the distinction LSC attempts to draw in its Comment
between sustainability of projects or of entities is largely irrelevant because the plan is
developed with LSC money. Even if the project is self-sustaining and continues to
provide valuable technology services to legal aid programs, the use of LSC funds to

                                              37
make the project and/or the entity self-sustaining is in the interest of the entity, not
necessarily LSC or its grantees.

Recommendation 24.         Develop procedures to formally review and evaluate
sustainability plans, including a requirement to fully document such reviews and
evaluations.

Management Response. Procedures for the formal review and evaluation of
sustainability plans, and for documenting these reviews and evaluations, have been
incorporated into the draft TIG Policies and Procedures Manual.

Evaluation of Management Response.           Management‟s planned actions are
responsive to the recommendation. Recommendation 24 will remain open until the TIG
Policies and Procedures Manual has been completed and a copy provided to the OIG.

Recommendation 25. Require that the grantee, rather than third-party entities receiving
the TIG grant funds, develop and submit the sustainability plan in accordance with
established guidance.

Management Response. Those TIG grantees that are required to develop and submit
project sustainability plans will be reminded that they are required do so in accordance
with established guidelines. Specific guidelines for the development and submission of
sustainability plans have been incorporated into the draft TIG Policies and Procedures
Manual. These guidelines provide that the TIG grantee may seek and incorporate input
from third-party entities with relevant expertise in the development of the sustainability
plan, but that the TIG grantee itself is ultimately responsible for the development and
submission of this plan.

Evaluation of Management Response.           Management‟s planned actions are
responsive to the recommendation. Recommendation 25 will remain open until the TIG
Policies and Procedures Manual has been completed and a copy provided to the OIG.

Recommendation 26. Suspend awarding new grants to grantees which have not
submitted acceptable sustainability plans in a timely manner.

Management Response. Management will implement a policy to suspend awarding
new grants to any TIG grantee if, at the time of the award decision, the TIG grantee is
overdue on submitting an acceptable sustainability plan, when required, on a prior TIG
project.

Evaluation of Management Response. Management‟s planned action is responsive.
Recommendation 26 will remain open until the TIG policies and procedures have been
completed and a copy provided to the OIG.


                                           38
G. Apparent Conflicts of Interest Not Identified

Apparent conflicts of interest existed between LSC grantees awarded TIG grants and
the third-party entities that received the grant funds as a pass–through. Because one of
the third-party entities identified had a long standing relationship with the LSC TIG
program and was one of two LSC mandated vendors, which over the years received
almost $2 million dollars in TIG funds via pass-throughs from TIG grantees, LSC should
have identified the apparent conflicts and should have developed control activities to
prevent, detect, and resolve such conflicts. Unless proper control activities are
established, future conflicts could occur.

a. Apparent conflicts of interest existed between LSC TIG grantees and the third-party
entity with a long standing relationship with the LSC TIG program. A review of the
entity‟s website disclosed that 7 of the 11 current Board members are employed by LSC
grantees. Two apparent conflicts of interest are described below.

   1. Over the period 2007 through 2009, one LSC grantee submitted, and was
      awarded, three TIG grants valued at $241,500 to be passed through to the same
      third-party entity. The grant applications were signed by the LSC grantee‟s
      Deputy Director of Grants and Administration. A review of the third-party entity‟s
      IRS Forms 990, Return of Organization Exempt From Income Tax, for 2007 and
      2008, and a review of the third-party‟s website revealed that the LSC grantee
      employee who signed the grant applications was the Chairman of the Board of
      Directors for the vendor. As a result of the apparent conflicts of interest, the OIG
      is questioning $226,500; the full amount of the three grants identified less the
      $15,000 already questioned in the previous finding. Accordingly, the OIG will
      refer the $226,500 to LSC Management pursuant to 45 C.F.R. Part 1630.

   2. Another LSC grantee has two open TIG grants valued at $141,500 with the
      same third-party entity identified above. The executive director for the LSC
      grantee is currently a board member for the third-party entity. The executive
      director signed the application for both grants. While the entity‟s website did not
      identify the exact date the executive director became a board member for the
      third-party entity, the website indicated the individual was a board member at
      least since September 2009. However, the executive director is listed as the
      point of contact for the LSC grantee on both grants and would be involved in
      monitoring the performance of the third-party entity on both grants. Because of
      the apparent conflict of interest, the OIG is questioning the value of both grants.
      Accordingly, the OIG will refer $141,500 to LSC Management as a questioned
      cost pursuant to 45 C.F.R. Part 1630.

b. In another instance, an LSC grantee was awarded a TIG grant of $503,673 to pass
through the majority of the awarded funds to a third-party entity. Although the
grantee‟s executive director signed the grant application, the employee listed as the

                                           39
point of contact for the grant was the Director of Development for the LSC grantee, and
would most likely have been involved in preparing the application for the grant. Also, in
the grant application, this employee was included in the “Qualification of Project Staff”
for the third party entity and identified as the third party entity‟s board president. This
information, which revealed apparent conflicts, was readily available in the grant
application file, but there was no indication that this issue was considered.
Accordingly, the OIG will refer the $503,673 as questioned costs to LSC Management
pursuant to 45 C.F.R. Part 1630.

Recommendations. The President of LSC should:

Recommendation 27. Establish procedures to identify and prevent or resolve conflicts
of interests for all TIG grants. These procedures should address actual and well as the
appearance of conflicts of interest.

Management Response and Comment.
Response:      Management will examine this issue and consider standards and
procedures for actual and apparent conflicts of interest that would be appropriate for
TIG grantees providing TIG funds to third parties, and will determine and follow the best
course of action.

Comment: Management takes very seriously concerns about potential conflicts of
interest regarding TIG grantees and third parties to whom they pay LSC funds.
Management notes that the Draft Report does not identify what definitions, standards or
procedures the OIG used in reaching its conclusions. Additionally, the situations
referenced in the Draft Report involve two non-profit third parties in which the individuals
referenced served in unpaid volunteer positions. Management believes that these may
be factors to consider in a discussion of these specific situations and the appropriate
steps to address these types of issues.

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive. Management‟s response only commits to examining the
issue of conflicts of interest in terms of standards and procedures that “…would be
appropriate for TIG grantees providing TIG funds to third parties,” rather than
establishing procedures to prevent and resolve actual or potential conflicts of interest for
all TIG grants. Recommendation 27 will remain open until the Management‟s
examination of the issue has been completed and a copy of the results provided to the
OIG.

Regarding Management‟s Comment, the OIG believes the report speaks for itself. LSC
Management contends that the money passed through to third-party vendors is done
through contracting actions. In the three examples in the finding, the individual who
works for the grantee (the organization contracting for services) is the individual largely
responsible for obtaining the funding from LSC, awarding the contract, and/or

                                            40
monitoring the services received from the contractor. The same individual is also a
member of the board of directors for the vendor (the organization awarded the contract).
In contracting actions, it is self-evident that the same individual cannot represent both
the contracting organization and the contractor. While Management states that the
individuals referenced in the finding served in unpaid volunteer positions, it does not
state how this would mitigate an apparent conflict of interest.

Recommendation 28. Establish procedures to take appropriate action should a conflict
of interest, that is not disclosed and resolved, be discovered during the grant period.

Management Response. Management will consider establishing such procedures in
the review and actions in response to Recommendation 27.

Evaluation of Management Response. Management‟s planned actions are not
responsive. Rather than establishing procedures to take appropriate action should such
a conflict not be discovered, Management indicated that it would consider establishing
such procedures. The OIG considers Recommendation 28 as open pending the results
of Management‟s consideration of the issue and establishment of appropriate
procedures.

III. Enforcement of Regulatory Compliance
Subgrant rules were not properly applied when grantees provided TIG funds to third
parties to accomplish the purpose of the grant and procedures were not established to
provide adequate oversight of regulatory compliance by those ultimately receiving TIG
funds. Our specific findings and recommendations follow.

A. Subgrant Rules Not Properly Applied

LSC did not properly apply its subgrant rule when grantees provided TIG funds to third
parties, 45 C.F.R. Part 1627, Subgrants And Membership Fees Or Dues. On 58
occasions, grant files reviewed by the OIG contain evidence that TIG grant money was
paid to third parties in a manner that would ordinarily require compliance with Part 1627,
but there was no evidence that the requirements of Part 1627 were followed.

LSC regulations define a subgrant as “any transfer of Corporation funds from the
recipient” where the entity receiving the transfer “agree[s] to conduct certain activities
specified by or supported by the [original] recipient related to the recipient‟s
programmatic activities.”20 The regulation defines programmatic activities as those that
“might otherwise be expected to be conducted directly by the recipient itself ....” 21 The

20
     45 C.F.R. § 1627.2(b)(1).
21
     Id.

                                           41
text of Part 1627 is not limited in application to grants directly supporting the provision of
legal services. It extends to all grants and contracts made to “carry out the purposes” 22
of the LSC Act. Most, if not all, subgrants also qualify as transfers under Part 1610,
subjecting the recipients of these payments to the restrictions outlined therein.23
Pursuant to Part 1627, subgrants must be submitted in writing to LSC for approval, and
subgrant agreements must contain certain terms specified by regulation, including terms
that make explicit LSC‟s rights to oversee the subgrant and assure compliance with
LSC rules.24

LSC‟s subgrant rule applies to all payments made by TIG grantees to third parties that
then carry out some or all of the activities that “might otherwise be expected to be
conducted directly by the recipient” of a TIG grant made for the purposes specified in
the grant documents. The TIG grants specify programmatic purposes other than the
direct provision of legal services, namely the implementation of certain technological
improvements. Payments by TIG grantees to third parties for services that fall within
these purposes amount to subgrants within the meaning of LSC‟s regulations as
currently written and should be administered consistent with the requirements of Part
1627.

While there were instances in which such subgrant payments were made for limited
purposes, some cases involved pass-through grants, in which substantially all of the
grant funds were paid to a third-party entity that performed most or all of the activities
called for in the grant documents. Sometimes, LSC was instrumental in directing funds
to the third-party entity.25

For example, four TIG grants were awarded where nearly all of the grant funds were
paid by the grantee to a third-party entity. In exchange, the third-party entity agreed to
meet nearly all of the milestones set out in the original grant documents, including the
submission of a final report directly to LSC. These four files contained written
agreements between the grantee and the third-party entity that purported to
characterize the third party entity‟s work as non-programmatic, but in practice the third-
party entity performed or agreed to perform most of the substantive work the TIG grants
in question were intended to support. As structured, all of 57 grants identified should
have been treated as entailing sizeable subgrants in the amount of the pass-through
payments because the third-party entities receiving these payments were intended to
22
    45 C.F.R. 1627.2(a); LSC Act sec. 1006(a)(1)(B) & (a)(3) (explicitly including grants to provide
“training and technical assistance”).
23
     45 C.F.R. §§ 1610.2(b) & (g) and 1610.7.
24
     45 C.F.R. § 1627.3.
25
   In one instance, LSC threatened to reduce the grant amount already awarded if the grantee did not
engage one of the specific third-party entities designated by LSC TIG.

                                                     42
carry out the principal programmatic activities for which the grant was awarded. 45
C.F.R. §1627.2(b)(1).

Notwithstanding LSC‟s Office of Legal Affairs (OLA) December 2002 internal opinion
that appears to have given a narrower scope to the subgrant rule than the OIG believes
is justified,26 many of the payments to third parties identified above would still qualify as
subgrants under this narrower reading. OLA‟s memorandum suggests, for example,
that recipients could not provide an entire grant to another entity to perform the activities
called for in grant documents without subjecting the third party entity to LSC restrictions.
Even according to OLA‟s narrower reading, pass-through grants should have been
treated as transfers and subgrants. The OIG identified 43 such grants. OLA also
acknowledged in its opinion that at a minimum, content development is generally
programmatic. The OIG identified seven grants (five of these grants are also included
in the 42 grants identified as meeting OLA‟s criteria) in which funds appear to have
been paid to third parties in part for content development. Under OLA‟s interpretation,
44 of the 57 grants the OIG identified above as subgrants should still have been treated
as subgrants.

The remaining 13 grants identified above as subgrants by the OIG but not falling within
OLA‟s narrower reading of the term, at a minimum, should have been subject to the
ordinary contracting process. OMB Circular No. A-133 § 210(f), for example, notes the
responsibility of recipients “to ensure that the procurement, receipt, and payment for
goods and services comply with laws, regulations, and the provisions of contracts or
grant agreements.” The TIG program did not have a process in place to ensure that
payments of this sort were made pursuant to adequate contracting procedures and did
not collect documentation reflecting such contracting procedures. In some cases, it
appears that LSC TIG officials even overrode ordinary contracting procedures by
requiring grantees to use a particular third-party provider.

In addition to violating LSC‟s regulation, the practice of not requiring and approving
written subgrant agreements or following other subgrant procedures weakens LSC‟s
control and oversight over its grant money and results in compliance with LSC laws and
regulations not being enforced. TIG staff indicated that LSC largely left compliance
oversight of such grants to the nominal grantee. The decision to not treat the payments
discussed above as subgrants may also deprive the third party entity of adequate
warning concerning compliance with LSC restrictions.          Adherence to subgrant
procedures would make LSC‟s oversight role more clear and ensure that the
requirement to comply with LSC laws and regulations is formally established and
enforceable.

26
   It should be noted that also in December 2002, the OIG informed OLA via memorandum of concerns it
had identified in a draft of OLA‟s internal opinion. In part, the OIG advised that “[i]f LSC is providing a
grant to build and administer or participate in the building or administering of a website, then that is the
programmatic activity.”

                                                    43
The lack of explicit subgrant agreements also makes it difficult to trace in the grant files
how money was spent, what activities third party entities were performing, and whether
these activities were consistent with LSC restrictions. At least one email concerning a
pass-through grant suggests that LSC has little information concerning the use of pass-
through grant funds once they are paid to the nominal grantees but instead relies on
these nominal grantees to track the use of funds intended to pass to the outside entities.

The OIG noted in its review that the programmatic purposes of some TIG grants
appeared to overlap the sort of business services that might not be treated as subgrants
in other contexts. There is a degree of ambiguity in the application of LSC‟s subgrant
rule to grants with relatively narrow, technological programmatic purposes, as was the
case with some TIG grants. Part 1627 draws a distinction between payments to third
parties to carry out activities “related to the [grantee‟s] programmatic activities,” which
must be treated as subgrants, and services provided by “vendors or consultants in the
normal course of business,” which need not be treated as subgrants when the services
“would not be expected to be provided directly by the [grantee] itself.” The subgrant rule
appears to have been written with the LSC‟s principal legal service grants in mind, such
that ordinarily, programmatic activities consist of the provision of legal services, and
business services can easily be classified as ancillary. This division is not as easy to
make in the case of TIG grants, and the rule does not seem to have anticipated this
problem. To the extent that LSC attempted to resolve the difficulties in application of its
subgrant rule to TIG grants by declining to classify payments to third parties as
subgrants, it likely weakened its ability to oversee the spending of its grant funds and
ensuring compliance with LSC laws and regulations.

Recommendations. The President of LSC should:

Recommendation 29. To the extent that the subgrant rule does not adequately account
for the unique features of TIG grants, initiate a process to amend LSC regulations to
account for these features and provide for workable oversight of TIG funds paid to third
parties.

Management Response. Management will review the subgrant rule at 45 C.F.R. Part
1627 to determine whether it adequately accounts for the unique features of TIGs and, if
not, Management will determine what recommendations would be appropriate to make
to the LSC Board of Directors regarding these features and any improvements to the
existing rule that would improve oversight of TIG funds paid to third parties by TIG
grantees.

Evaluation of Management Response.            Management‟s planned actions are
responsive to the recommendation. Management‟s response, however, appears to
contemplate only changes to 45 C.F.R. Part 1627. It is important to note that the OIG‟s
recommendation is not confined to such changes. Rather, the OIG recommended that

                                            44
LSC engage in rulemaking to ensure adequate oversight of TIG funds paid to third
parties to the extent these payments are not adequately addressed in Part 1627. This
rulemaking could include creation of a new TIG-specific rule. Recommendation 29 will
remain open until all actions are completed and the OIG is notified of the results.

Recommendation 30. Require OLA to review all open and pending grants to determine
which grants should be subject to LSC‟s subgrant regulation and obtain subgrant
agreements where needed.

Management Response and Comment.
Response: OLA will conduct this review on all open and pending TIGs and LSC will
obtain the subgrant agreements where needed.27

Comment: Management notes that the subgrant rule at 45 C.F.R. Part 1627 has always
applied to all TIGs. The OLA review will determine whether any payments of TIG funds
to third parties by TIG grantees ("vendor contracts") in open or pending TIGs should be
classified as subgrants. The subgrant rule provides for prior approvals and does not
address reclassification of an existing contract as a subgrant where a misclassification
had occurred. Management will determine the best way to handle such reclassification
in these situations based on the framework of the subgrant rule and the existing
contractual obligations of TlG grantees. Generally, as part of the TIG application, LSC
requires applicants to identify all significant potential vendor arrangements, which are
then examined by LSC as part of the review process prior to determining whether to
award the grant.

Management notes that the Draft Report makes assertions that are not necessarily
consistent with LSC's longstanding interpretation and application of the subgrant rule.
The review will give serious consideration to these comments in the Draft Report.
Management also disagrees with the Draft Report's statement that LSC resolved
"difficulties in application of its subgrant rule to TIG grantees by declining to classify
payments to third parties as subgrants .... " LSC did not "decline to classify" any
payments that it thought should have been subgrants. Rather, in the OLA opinion
referenced, Management consulted with OLA regarding the specific distinction between
programmatic subgrants and non-programmatic expenditures for goods and services
involving administrative functions of statewide websites, content development, and
support services (such as translation of content to foreign languages). Management
and OLA carefully considered the language of the regulation and the overall history of
LSC's application and enforcement of it in order to make careful and precise regulatory
determinations based on the specific facts and circumstances presented.

27
  (This is Management‟s footnote to its Comments.) OLA provides legal interpretations regarding the
meaning of the LSC regulations that provide the framework for compliance determinations by both
Management and the OIG. [The OIG notes that the OIG legal counsel provides interpretations of the
regulations that also guide its compliance determinations.]

                                                45
The Draft Report also references two categories of potential misclassification regarding
vendor contracts: ones that the OIG believes conform to the existing interpretation of
the subgrant rule but which the OIG disagrees with, and ones that the OIG states do not
conform to that interpretation. The OLA review will take into account this distinction and
the OIG's views, and Management will consider them in determining the appropriate
course of action for correcting any misclassified arrangements.

Evaluation of Management Response and Comment. Management‟s planned
actions are responsive. Recommendation 30 will remain open until all Management
actions are completed and the OIG is notified of the results of the review.

However, Management‟s Comment section gives rise to significant doubt about its
commitment to the reclassification of third party payments. In its Comment on
Recommendation 30, Management mentions a “longstanding,” “carefully considered”
interpretation of the subgrant rule that purportedly supports the past practice of the TIG
program. Management omits mention of the fact that the OIG alerted OLA to serious
defects in that interpretation when it was being formulated. At that time, the OIG‟s input
was disregarded and a reading of the subgrant rule at odds with the plain language was
adopted instead. In its Comment on Recommendation 32 below, Management
contends that “subgrant requirements have always applied to all TIGs” and that LSC
has “consistently made clear to TIG grantees that any subgrants as defined in the
regulation must follow the normal subgrant procedures” (emphasis added). Given these
Comments, it appears that Management does not anticipate a need to obtain subgrant
agreements in a large number of open or pending TIG grants.

Recommendation 31. Based on the grants identified by OLA in Recommendation 30
above, ensure that subgrant agreements are executed and approved by LSC before
authorizing additional payments.

Management Response. Management will ensure that for the situations identified in
Recommendation 30 above (i.e. where OLA determines that the payment of TIG funds
to a third party is a subgrant), subgrant agreements will then be executed and approved
by LSC prior to permitting the TIG grantee to provide further funds to the third party as
an allowable payment.

Evaluation of Management Response.                Management‟s planned actions are
responsive to the recommendation. However, Recommendation 31 will remain open
until all actions are completed and the OIG is notified of the results.

Recommendation 32. Develop procedures to ensure subgrant requirements for future
grants are identified for each applicable TIG grant and that obtaining LSC approval for
the subgrant is a condition that must be met before TIG funds are provided.


                                           46
Management Response and Comment.
Response: Management will review its procedures to determine what improvements
can be developed and implemented to ensure that for future subgrants in TIGs all
subgrant requirements, including prior approvals, are met prior to permitting the TIG
grantee to provide funds to the third party as an allowable payment.

Comment: Management notes that the subgrant requirements have always applied to
all TlGs consistent with LSC's overall grants management and oversight activities. The
questions raised by the OIG in the Draft Report go to the issue of the classification of
payments to third parties as vendor contracts rather than as subgrants. Management
has consistently made clear to TlG grantees that any subgrants as defined in the
regulation must follow the normal subgrant procedures including seeking prior approval
before making a subgrant.

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive. The response amounts to a statement that Management
will conduct a review at a later date to decide whether and to what extent it will develop
the recommended procedures. Until Management makes that determination as to what
if any improvements can be made and the OIG is notified of the results,
Recommendation 32 will remain open.

Regarding Management‟s Comment, the OIG is concerned because Management
appears to downplay the need to develop the sort of procedures recommended by the
OIG. Management gives the impression that there is very little that it can do at the LSC
headquarters level pertaining to subgrants and that LSC Management has to rely on the
grantees to follow the subgrant rules, stating in its Comment section:

          Management has consistently made clear to TlG grantees that any
          subgrants as defined in the regulation must follow the normal
          subgrant procedures including seeking prior approval before
          making a subgrant.

While on the surface this would seem to be a reasonable approach, Management‟s
comment is misleading, belying the control Management has over its own grant-making
and grant oversight process. Because of the grant application process, TIG staff often
knows with precision who is getting the TIG funds, what those funds will be used for,
and how they will be transferred. Management could easily make a determination as to
which grants fall under subgrant procedures and make the subgrant mandatory in order
to receive the TIG award. By saying that it consistently makes clear to the grantee the
need to follow the normal subgrant procedures, LSC Management surrenders its
oversight responsibility to the grantee. LSC Management is in the perfect position to
exercise oversight to ensure proper application of the subgrant rules. Management also
asserts in its Comment that OIG‟s findings relate to the proper “classification of
payments to third parties” rather than the application of subgrant requirements. Where

                                           47
there is apparent widespread misclassification as described in the Report, the
distinction cited by Management is of little practical effect because the misclassification
at issue short-circuits application of the subgrant requirements. Taken as a whole,
Management‟s Comment on the Recommendation 32 appears to minimize the need to
develop the sort of procedures recommended by the OIG.

Recommendation 33. Establish procedures to ensure that subgrantees are following
subgrant requirements and are in compliance with applicable LSC laws and regulations.

Management Response and Comment.
Response: Management will review its procedures to determine the extent to which
improvements are warranted, consistent with LSC's overall grants administration, to
ensure that TIG subgrantees are following subgrant requirements and are in compliance
with applicable LSC laws and regulations.

Comment: As stated in TIG award letters, TIG grantees are subject to all LSC rules,
regulations, guidelines and directives, which of course include those requirements that
apply to subgrantees. As noted in the response to Recommendation 32 above, the
Draft Report questions the categorization of payments as vendor contracts rather than
subgrants. Management notes that there are no instances identified in the Draft Report
in which a payment had been treated as a subgrant and the subgrantee failed to comply
with these requirements. Rather, the Draft Report reflects the fact that the subgrantee
requirements go hand-in-hand with the determination whether or not a payment is a
subgrant.

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive. The response amounts to a statement that Management
will conduct a review at a later date to decide whether and to what extent it will develop
the recommended procedures. There are no procedures pertaining to TIG grants to
ensure grantees are following subgrant requirements and are in compliance with
applicable LSC laws and regulations. As the OIG indicated above, LSC Management
has sufficient information at the outset of each TIG grant to identify most if not all
transfers that are subgrants and must follow subgrant requirements. (See Evaluation of
Management Response for Recommendation 32 above). Thus Management should
develop and put in place the procedures to do so. LSC Management comments would
have one believe that everything is working as designed for subgrants. Until
Management makes that determination as to what if any improvements can be made
and the OIG is notified of the results, Recommendation 33 will remain open.

Regarding Management‟s Comment, LSC Management states that “there are no
instances identified in the Draft Report in which a payment had been treated as a
subgrant and the subgrantee failed to comply with these requirements.” This implies
that the system is working. Quite the contrary is true. The OIG did not identify
instances in which a payment was treated as a subgrant and the subgrantee failed to

                                            48
comply with subgrant requirements because the OIG did not identify any payment that
had been treated as a subgrant. Very few, if any, of the pass-through payments
identified are treated by LSC or its TIG grantees as subgrants. The reason there are
very few subgrants is because LSC Management is neither providing adequate
oversight over TIG grants nor making subgrants a condition of receiving the grant funds
as warranted. As was the case with Management‟s Comment to Recommendation No
32, Management‟s Comment to Recommendation 33 appears to downplay the need to
develop the sort of procedures recommended by the OIG.

Recommendation 34. To the extent that current or future subgrant requirements do not
apply, put in place a process to ensure that the grantees follow an adequate contracting
process, including competing high dollar contracts and maintaining adequate
documentation for all contracted services.

Management Response and Comment.
Response: For situations in which payments by TIG grantees to third parties are not
subgrants, Management will review its procedures to determine the extent to which
improvements are warranted, consistent with LSC's overall grants administration,
including consideration of enhancement of requirements for adequate documentation
for contracted services, of appropriate contracting procedures and of competition
options for high-dollar contracts.

Comment: TIG funds have always been subject to all LSC rules regulations, guidelines
and directives. Management's review will determine if additional procedures are
needed based on the nature of the TIG Program and whether recommendations to the
Board for additional rulemaking are in order. Management notes that page 26 of this
section of the Draft Report contains serious assertions regarding the TIG program and
TIG grantee contracting, but Management is unable to comment on these assertions
without further details.

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive. Improvements are warranted and necessary to provide
adequate oversight of TIG grants. The audit found that the TIG program did not have a
process in place to ensure adequate contracting procedures on the part of grantees and
that the TIG program “did not collect adequate documentation” concerning the grantee‟s
contracting decisions. Recommendation 34 will remain open until all actions are
completed and the OIG is notified of the results.

Regarding Management‟s Comment, the issue is not whether TIG funds are subject to
all LSC rules, regulations, guidelines and directives. The issue is that LSC had not
established adequate procedures to provide grant oversight to ensure that recipients of
TIG funds, including the ultimate recipients of those funds, are in fact following all LSC
rules, regulations, guidelines and directives. Management also contends that it is
“unable to comment” on assertions in the Audit Report regarding TIG grantee

                                           49
contracting “without further details.” Among its findings concerning grantee contracting,
the Audit Report states that the TIG program does not have a process in place to
ensure adequate contracting procedures on the part of grantees and that the TIG
program “did not collect adequate documentation” concerning the grantee‟s contracting
decisions.      These findings speak to basic requirements for adequate grant
administration. Given that LSC administers the TIG program, it is not unreasonable to
expect that it is in a position to comment on its own procedures and the documentation
it collects.

B. Regulatory Compliance Not Adequately Monitored

LSC did not have a process in place to oversee regulatory compliance and program
integrity as part of its ordinary oversight of TIG grants. The OIG found instances where
third party entities likely engaged in restricted activities as well as a potential program
integrity violation.

Because at least 58 of the grants reviewed by the OIG involved either payments to third
parties who performed the principal functions of the grants or projects intended to
facilitate cooperation and collaboration with other legal service providers, the OIG
intended to review grant files for information concerning third party entity compliance
with LSC regulations. In the case of parties receiving transfers from TIG funds, many of
LSC‟s restrictions would apply, while in the case of third-party entities, the program
integrity rule would apply. 45 C.F.R. Part 1610. The OIG found little if any evidence in
the grant files concerning such compliance issues, and there seems to be little
indication that LSC actively pursued oversight in this area

       Regulatory Compliance by Third-Party Entities

Third-party entities that received or likely received a transfer may have engaged in
restricted activity. LSC did not have the controls in place to detect and prevent
transferees from engaging in restricted activities. The OIG was unable to determine the
extent of violations, if any, because the TIG program did not maintain adequate
documentation.

Many of LSC‟s regulations apply not only to its grantees but also to entities that receive
transfers of LSC funds from grantees.28 A transfer occurs where a there is “a payment
of LSC funds by a recipient to a person or entity for the purpose of conducting
programmatic activities.” 45 C.F.R. § 1610. 2(g). The recipient of such a transfer would

28
   TIG grant file #03030 contains an email to TIG staff: “Does LSC require or provide for any specific
contractual language to be used between its grantee and a non-LSC program performing activities under
a TIG grant? We are ready to transfer the initial payment from [redacted grantee] to [redacted
contractor], and would like to take care of any necessary documentation, including LSC requirements,
before we do.” The OIG could not find a response to the question in our file review.

                                                 50
then be subject to the requirements identified in Part 1610, including restrictions on
lobbying and certain other legislative activities. 45 C.F.R. 1610.2(b)(2) & 1610.7(a).
In one instance, an LSC grantee reported that it “out-sourced the development of [its]
website to [a third party entity].” The website was intended to “make available materials
for people to represent themselves as well as provide materials for attorneys that have
agreed to represent low-income individuals.” The development of such a website would
necessarily entail the sort of substantive work that falls within the programmatic purpose
of the TIG grant in question. To the extent that the “out-sourcing” in question involved
the payment of LSC funds to the third-party entity, it would amount to a “transfer,” within
the meaning of LSC regulations, subjecting the third party entity to many of LSC‟s
restrictions.

The third party entity‟s website contains numerous examples of activity that would fall
within the prohibition on lobbying and certain other legislative activities if conducted by
an entity that received a transfer of LSC funds. Because procedures were not
established to detect or prevent violations by transferees, the OIG was unable to
determine conclusively whether LSC funds were paid to the third-party entity as part of
the outsourcing described above and whether the third-party entity engaged in the sort
of activities that are now featured prominently on its website while it was in receipt of
LSC funds. The OIG will be referring the matter to Management for further inquiry and
follow-up.

The OIG detected similar problems with certain grants from the 2004 to 2005 time-
frame. A majority of funds from these grants were paid to a single third-party entity to
perform all or most of the work called for in the grant. As in the case above, these
payments are best characterized as transfers. 45 C.F.R. § 1610.10.2(g). A review of
this third-party entity‟s website revealed activity in 2009 that would likely be prohibited
by LSC regulation had it received LSC funds in that year. While not conclusive, this
information does raise concerns about regulatory compliance in connection with the
grants that resulted in transfers to this third party entity in the 2004 to 2005 time-frame.
The OIG will also be referring these grants to Management for further inquiry and follow-
up.

       Program Integrity in Collaborative Projects

With respect to TIG projects intended to facilitate cooperation and collaboration with
other legal service providers, the OIG was unable to reliably assess compliance with the
program integrity rule on the basis of information available in the grant files. The
program integrity rule sets out standards to ensure that LSC‟s grantees maintain
“objective integrity and independence” from collaborators who engage in restricted
activities. 45 C.F.R. §1610.8. The rule is of particular interest where a grantee
collaborates with entities that do not receive LSC grants and, hence, are not subject to
LSC restrictions, as in the case of some statewide website projects. There was little, if


                                            51
any, information in the grant files reviewed by the OIG that reflected active monitoring of
program integrity issues with respect to collaborative projects.

The OIG identified some evidence that LSC has in the past had access to the private,
advocacy side of some statewide websites,29 where collaboration among legal service
providers may occur. A TIG official, however, indicated that the TIG program has no
systematic process for securing access to statewide websites, maintaining passwords,
and monitoring program integrity relative to these websites. The OIG did review two
such password protected sites to which a TIG official secured access with the voluntary
cooperation of the grantee. A review of one of these websites revealed at least two
instances of problematic activity. In one instance, the website published voter
registration material, potentially violating C.F.R. § 1608.6 and the associated statutory
provision. In the other instance, the website published what appeared to be training
materials relative to the representation of undocumented aliens. Publication of these
materials appears to have violated 45 C.F.R. § 1612.8(4) (training) in combination with
LSC‟s 1996 Appropriations Act, Pub. L. 104-134 §504(a)(11) (legal assistance to
aliens). The OIG will refer these instances of apparent violations to Management for
further inquiry, but in the absence of more systematic access to statewide websites, the
OIG was unable to assess compliance with the program integrity rule vis-à-vis advocacy
websites.

Recommendations. The President of LSC should:

Recommendation 35. Develop processes to detect and prevent violations of restrictions
by transferees, including adequate documentation of the oversight process.

Management Response and Comment.
Response: Management will review its procedures to determine the extent to which
improvements are warranted to ensure that TIG funding transferees, as defined by 45
C.F.R. Part 1610, are following all applicable restrictions and that oversight is
adequately documented consistent with LSC's overall grants management and
oversight.

Comment: As stated in TIG award letters, TIG grantees are subject to all LSC rules,
regulations, guidelines and directives, which of course include those requirements that
apply to transferees. As with the issue of subgrants discussed in the response to
Recommendation 33 above, the Draft Report only questions the categorization of
payments as vendor contracts and not as transfers. Management notes that there are
no instances identified in the Draft Report in which a payment had been treated as a
transfer and the transferee failed to comply with these requirements. Rather the Draft
Report reflects the fact that the restrictions on transferees go hand-in-hand with the

29
  TIG-funded statewide websites often include a password protected section that allows for collaboration
among legal advocates working in the legal services community or providing pro bono services.

                                                  52
determination whether or not a payment is a transfer. The one situation discussed in the
Draft Report will be reviewed upon referral.

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive. Improvements are warranted. Procedures are not in place
for TIG grant staff to identify and prevent violations of restrictions by transferees.
Because of the vast amount of information available as a result of the TIG grant
application process, TIG staff has an opportunity to detect and prevent potential
violations of restrictions by transferees before grants are awarded. At the very least, it
has enough information to identify high-risk transferees and follow-up. However, no
procedures or requirements are in place to do so. Recommendation 35 will remain
open until all actions are completed and the OIG is notified of the results.

It should be noted that in its Comment on Recommendation 35, Management
references a distinction between misclassification of transfers and non-application of
rules applicable to transferees that parallels the distinction drawn in its Comment on
Recommendation 33. As the OIG observed in connection with Management‟s
Response to Recommendation 33, this distinction is of limited usefulness because
widespread misclassification of transfers effectively short-circuits the rules that would
ordinarily apply to transferees. Indeed, the above referenced case of potential
noncompliance by an apparent transferee highlights the risk associated with widespread
misclassification. As mentioned in the finding, the absence of adequate documentation
made it difficult to determine the extent of similar noncompliance.

Recommendation 36. Develop processes to monitor program integrity with respect to
TIG projects intended to facilitate cooperation and collaboration with other legal service
providers.

Management Response and Comment.
Response: With respect to TIG projects intended to facilitate cooperation and
collaboration with other legal service providers, Management will review its procedures
to determine the extent to which improvements regarding monitoring program integrity,
as required by 45 C.F.R. § 1610.8 and consistent with LSC's overall grants
management and oversight, are warranted.

Comment: Management has made clear to TIG grantees from the inception of the
program that they must comply with all applicable LSC laws and regulations.
Management takes very seriously the issue of enforcement of the Part 1610 program
integrity rule, especially in light of the ongoing litigation regarding this rule in both the
Second and the Ninth Circuits. All LSC program recipients, including those that have
TIG awards, are required by the rule to provide annual certifications of compliance with
program integrity. Over the past fourteen years both the OIG and the OCE have
conducted specific on-site program integrity reviews of LSC program recipients to
ensure compliance with 45 C.F.R. § 1610.8. The Draft Report does not provide a

                                             53
description of how the facts identified relate to the detailed factors set forth in the three-
part program integrity requirement at 45 C.F.R. § 1610.8 (the rule includes making
determinations “on a case-by-case basis…based on the totality of the facts”).

Additionally, this section of the Draft Report appears to reflect a misunderstanding of the
structure and operation of statewide websites. Statewide websites are vehicles for
providing and exchanging information, similar to libraries, working groups, taskforces,
etc. Statewide websites are not entities that themselves provide legal services. For
example, individuals seeking legal help can go to a statewide website to try to find
appropriate services or legal information. The website can direct eligible clients to LSC-
funded programs, direct non-eligible clients to other programs and provide legal
information to pro se materials. Information about LSC program recipients can be
distinguished from information about other entities that engage in restricted activities.
Management also notes that the materials identified in the Draft Report do not
necessarily implicate restricted activities. For example, the Draft Report references
materials relating to representation of undocumented aliens, but does not note that
Congress has explicitly permitted LSC program recipients to provide representation to
certain undocumented aliens including victims of abuse, violence and trafficking.
Management will review the concerns raised by the OIG regarding this issue and
determine if additional measures regarding program integrity and these types of TIGs
are warranted.

Evaluation of Management Response and Comment. Management‟s planned
actions are not responsive. Procedures are not in place and need to be developed for
TIG grant staff to monitor program integrity with respect to TIG projects intended to
facilitate cooperation and collaboration with other legal service providers. As stated in
this report, TIG grant files contained little, if any information that reflected active
monitoring of program integrity issues. Thus, the OIG was unable to reliably assess
compliance with the program integrity rule on the basis of information available in the
grant files. Recommendation 36 will remain open until all actions are completed and the
OIG is notified of the results.

At least two aspects of Management‟s Comment also give the OIG pause in assessing
the adequacy of Management‟s Response. First, Management‟s assertion that “[o]ver
the past fourteen years both the OIG and the OCE have conducted specific on-site
program integrity reviews of LSC program recipients,” is somewhat misleading in the
context of this audit of TIG. The statement does not make reference to review of
projects funded with TIG funds, such as statewide websites. While it is true that the
OIG has conducted specific on-site program integrity reviews, none involved TIG funded
projects. Also, while OCE also has conducted program integrity reviews, the OIG
knows of none specific to TIG funded projects. If OCE has conducted such reviews of
TIG funded projects, it is the exception and does not constitute a systematic approach
in the overall administration of TIG grants as Management comments may imply.
Second, much of Management‟s Comment on Recommendation 36 seeks to minimize

                                             54
the limited evidence the OIG was able to adduce on the subject and excuse the conduct
suggested by that evidence. To the OIG‟s knowledge, Management did not, however,
actually examine the evidence itself or undertake a more detailed investigation. The
Report indicates that the OIG will be referring this evidence to Management for further
inquiry, but Management‟s rush to marginalize the evidence, gives rise to concerns
about the quality of the inquiry that Management will make based upon the OIG‟s
referral. Taken as a whole, Management‟s comment appears to be an attempt to
excuse past practice in the area of program integrity rather than an attempt to address
the program integrity concerns identified in the Report and move forward to ensure that
such violations do not occur.




                                          55
